<html>
<title> - PROTECTING THE HOMELAND FROM NUCLEAR AND RADIOLOGICAL THREATS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






     PROTECTING THE HOMELAND FROM NUCLEAR AND RADIOLOGICAL THREATS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2014

                               __________

                           Serial No. 113-82

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                   

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-899 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Curtis Clawson, Florida
                   Brendan P. Shields, Staff Director
                   Joan O'Hara, Acting Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                 Patrick Meehan, Pennsylvania, Chairman
Mike Rogers, Alabama                 Yvette D. Clarke, New York
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Jason Chaffetz, Utah                 Filemon Vela, Texas
Steve Daines, Montana                Vacancy
Scott Perry, Pennsylvania, Vice      Bennie G. Thompson, Mississippi 
    Chair                                (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
               Alex Manning, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk




















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Ms. Huban A. Gowadia, Director, Domestic Nuclear Detection 
  Office, Department of Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. David C. Trimble, Director, Natural Resources and 
  Environment, U.S. Government Accountability Office:
  Oral Statement.................................................    17
  Prepared Statement.............................................    18

                                Appendix

Questions From Chairman Patrick Meehan For Huban Gowadia.........    39

 
     PROTECTING THE HOMELAND FROM NUCLEAR AND RADIOLOGICAL THREATS

                              ----------                              


                         Tuesday, July 29, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan and Clarke.
    Mr. Meehan. The Committee on Homeland Security, 
Subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies will come to order.
    The subcommittee is meeting today to examine the Department 
of Homeland Security's capabilities of protecting the homeland 
from nuclear or radiological attacks.
    I now recognize myself for an opening statement.
    The subcommittee meets today to examine a vitally important 
issue: Protecting the homeland from nuclear and radiological 
attack. I think if we just use those words alone, it identifies 
the seriousness and gravity of the issue. A nuclear or 
radiological attack, with its very scope, just so remarkably, 
sort-of, outperforms so many other forms of concern that we 
have.
    So, given the alarming expansion of terrorist safe havens 
across the Middle East and North Africa, along with the 
increasing sophistication of these groups in organizing and 
planning attacks, it is imperative the Department of Homeland 
Security is properly prepared to detect and deter nuclear 
threats.
    The Domestic Nuclear Detection Office, which we often refer 
to as DNDO, is the entity within the Department of Homeland 
Security responsible for preventing a nuclear attack and is the 
lead agency within the United States Government for 
coordinating efforts to detect and intercept radiological and 
nuclear devices that may find their way into the United States. 
DNDO coordinates these efforts through an interagency system 
and the collaborative framework that is known as the Global 
Nuclear Detection Architecture. DNDO is responsible for 
implementing that architecture domestically.
    DNDO works with other Department of Homeland Security 
components, including Customs and Border Protection, as well as 
State and local law enforcement to provide these entities with 
the equipment and training needed to interdict radiological or 
nuclear material before it can enter the United States. DNDO 
works closely with these components to install radiation portal 
monitors at ports of entry and supply officers with portable 
radiation monitors. Currently, 100 percent of all containerized 
cargo coming in is scanned at land and sea ports of entry into 
the United States.
    DNDO also works with State and local law enforcement and 
first responders to strengthen nuclear detection capabilities 
in the interior. Through the Securing the Cities program, DNDO 
helps State, local, and Tribal governments design and implement 
detection and interdiction capabilities in high-density urban 
areas. The efforts in the New York City region have resulted in 
a robust detection architecture. Last year, DHS announced the 
STC program will be expanded to Los Angeles-Long Beach area, 
and they will select a third city in fiscal 2014.
    While these achievements are significant, there is still 
work to be done to address the gaps in the nuclear detection 
architecture. The purpose of this hearing is to address those 
gaps and find how we can best assist DNDO and the Department to 
prevent a catastrophic nuclear event.
    DNDO has had its share of struggles in the past--among 
them, failed acquisition plans and less-than-optimal working 
relationships with some of their other interagency components. 
In its report from 2013, the GAO--and it is important to note 
that this is why we have the GAO here, who has been taking a 
good arm's-length look at the activities--they noted these 
deficiencies and recommended approaches towards curing them. I 
will be interested in hearing some of that from our witness.
    Since then, DNDO has successfully worked to implement GAO 
recommendations. I look forward to learning more about it, how 
the office has improved as a result of those efforts.
    I pleased to welcome to this hearing our distinguished 
panel. Dr. Huban Gowadia is the director of the Domestic 
Nuclear Detection Office, and Dr. David Trimble is the director 
of Natural Resources and Environment at the U.S. Government 
Accountability Office.
    DNDO plays a vital and specific role within the Homeland 
Security, and it is our responsibility to ensure that it has 
what it needs to protect and prevent a radiological or nuclear 
terrorist attack. I look forward to hearing from our witnesses 
on, and particularly Dr. Gowadia, how she envisions the future 
of DNDO.
    I note also, while I talk about the catastrophic nuclear 
event that is potential in a world in which proliferation, 
particularly that which is going on in Iran and Iraq and other 
places in which there is perhaps not weapons themselves but 
certainly nuclear-grade material that can be used in other 
kinds of capacities, including dirty bombs and other things, we 
are talking about a broad spectrum of potential threats.
    So we certainly are interested in the future and what DNDO 
and Congress can do and should do to help this office achieve 
its mission. So I am grateful for your presence here.
    [The statement of Mr. Meehan follows:]
                  Statement of Chairman Patrick Meehan
                             July 29, 2014
    The subcommittee meets today to examine a vitally important issue: 
Protecting the homeland from nuclear and radiological attack. Given the 
alarming expansion of terrorist safe havens across the Middle East and 
Northern Africa, along with the increasing sophistication of these 
groups in organizing and planning attacks, it is imperative that the 
Department of Homeland Security is properly prepared to detect and 
deter nuclear threats.
    The Domestic Nuclear Detection Office (DNDO) is the entity within 
the Department of Homeland Security responsible for preventing a 
nuclear attack, and is the lead agency within the U.S. Government for 
coordinating efforts to detect and intercept radiological and nuclear 
devices coming into the United States. DNDO coordinates these efforts 
through an interagency systems and collaborative framework known as the 
Global Nuclear Detection Architecture (GNDA), and DNDO is responsible 
for implementing the GNDA domestically.
    DNDO works with other DHS components, including Customs and Border 
Protection, as well as State and local law enforcement, to provide 
these entities with the equipment and training needed to interdict 
radiological or nuclear material before it can enter the United States. 
DNDO works closely with these components to install radiation portal 
monitors at ports of entry and supply officers with portable radiation 
monitors. Currently 100% of all containerized cargo coming is scanned 
at land and sea ports of entry in the United States.
    DNDO also works with State and local law enforcement and first 
responders to strengthen nuclear detection capabilities in the 
interior. Through the ``Securing the Cities'' program, DNDO helps 
State, local, and Tribal governments design and implement detection and 
interdiction capabilities in high-density urban areas. These efforts in 
New York City region have resulted in a robust detection architecture, 
and last year, DHS announced the STC program will be expanded to the 
Los Angeles-Long Beach area and will select a third city in fiscal year 
2014.
    While these achievements are significant, there is still work to be 
done to address gaps in the nuclear detection architecture. The purpose 
of this hearing is to address those gaps and find how we can best 
assist DNDO and the Department to prevent a catastrophic nuclear event.
    DNDO has had its share of struggles in the past. Among them, failed 
acquisition plans, and less-than-optimal working relationships with 
some of its inter-agency counterparts. In its report from 2013, the 
Government Accountability Office (GAO) noted these deficiencies and 
recommended approaches toward curing them. Since then, DNDO has 
successfully worked to implement GAO's recommendations, and I look 
forward to learning more about how the Office has improved as a result 
of those efforts.
    I am pleased to welcome to this hearing our distinguished panel of 
witnesses: Dr. Huban Gowadia, director of the Domestic Nuclear 
Detection Office, Dr. David Trimble, director, Natural Resources and 
Environment, U.S. Government Accountability Office. DNDO plays a vital 
and specific role within homeland security and it is our responsibility 
to ensure that it has what it needs to prevent a radiological or 
nuclear terrorist attack. I look forward to hearing from Dr. Gowadia 
how she envisions the future of DNDO, and what Congress can and should 
do to help the office achieve its mission.

    Mr. Meehan. I now recognize the Ranking Minority Member of 
the subcommittee, the gentlelady from New York, Ms. Clarke, for 
any statement she may have.
    Ms. Clarke. I thank you, Mr. Chairman, for holding this 
hearing on the threats of radiological and nuclear smuggling 
that our country faces.
    I want to thank our witnesses today, Dr. Gowadia, director 
of DNDO, and Mr. Trimble and the GAO team for agreeing to 
testify today.
    The issues before us today include how to measure the 
balance between investment in near-term and long-term solutions 
for nuclear detection gaps and how we gauge the degree and 
efficiency of Federal agency coordination and especially the 
mechanisms that DNDO employs for setting agency investment 
priorities.
    Today, we will hear about some of the achievements that the 
hard-working Federal and civilian employees of DNDO have 
accomplished to protect us. Other testimony today will help us 
understand the challenges that we experience in such a highly 
complex technological world preventing terrorists from 
acquiring, transporting, and using radiological materials as a 
weapon of terror.
    If we are to think about reauthorizing this program, which 
I understand the Chairman is inclined to do, this subcommittee 
in its oversight responsibilities needs to possess ways to 
evaluate and measure the outcomes of DNDO's R&D activities, 
their resource requests, and their asset allocations.
    I think it is safe to say that over the years this 
subcommittee has seen many examples of DNDO pushing for 
acquisition decisions well before some technologies had 
demonstrated that they could live up to the promises made. In 
my opinion, we must deal with this issue directly in any 
potential legislative language.
    It will be paramount that DNDO policy and strategy be 
translated into operations, tactics, and implementation that 
meet the requirements of Department-wide needs and that this 
subcommittee be able to transparently see that process.
    Furthermore, there are natural tensions among Federal 
agencies created by overlapping missions in the nuclear arena, 
especially in the field of nuclear detection. This fact of life 
does not make matters of policy and strategy easy to implement, 
nor outcomes easily measured.
    Since 2009, after President Obama's administration, DNDO 
has made important changes and made especially good progress in 
nuclear forensics. I hope that our Congressional oversight 
efforts also have had a positive effect.
    In 2010, the committee, under then-Chairman Thompson, wrote 
and combined S&T-DNDO authorizations, H.R. 4842, which set out 
the premise that research and development and operations and 
procurement are best left to separate organizations in order to 
avoid obvious and glaring conflicts of interest. While not all 
goals of that legislation were achieved, the message was 
clearly received by the administration.
    What I hope we are going to hear today is: How can DNDO's 
mission be better-defined? Some claim there is still confusion 
as to whether the office is an end-to-end R&D procurement 
entity for all things nuclear and radiological. Is it a 
development entity, or an operational entity? Some still 
question whether there is an inherent conflict of interest when 
an office, agency, or program is both an R&D workshop and a 
procurement platform. I hope we can explore some of these 
questions today.
    Let me finish with this thought. On the ground and every 
day, our nuclear deterrence effort as a Nation depends on 
motivated and vigilant officers across the globe supplied with 
the best equipment and intelligence we can give them. Officers 
working out of our Nation's ports of entry have an especially 
complex and difficult job. Thousands of decisions are made 
every day to clear a container or a personal or commercial 
vehicle for transit into the United States. Other cargo 
requires further inspection or even denial of entry or an 
interdiction action on a vehicle or person.
    That is the hard, cold, repetitive, and everyday reality of 
our mission to prevent the kind of violent nuclear attack. 
However, this is part of the flow of commerce in the world's 
premier, leading trading market, the United States, and we are 
grateful for all of our dedicated women and men in the field 
who perform these vital tasks.
    Mr. Chairman, I look forward to today's testimony, and I 
yield back.
    [The statement of Ms. Clarke follows:]
              Statement of Ranking Member Yvette D. Clarke
                             July 29, 2014
    Thank you, Mr. Chairman, for holding this hearing on the threats of 
radiological and nuclear smuggling our country faces. I want to thank 
our witnesses today, Dr. Gowadia, director of DNDO, and the GAO team 
for agreeing to testify today. The issues before us today include how 
to measure the balance between investment in near-term and long-term 
solutions for nuclear detection gaps, and how we gauge the degree and 
efficiency of Federal agency coordination, and especially the 
mechanisms that DNDO employs for setting agency investment priorities.
    Today, we will hear about some of the achievements that the hard-
working Federal and civilian employees of DNDO have accomplished to 
protect us. Other testimony today will help us understand the 
challenges that we experience in such a highly complex technological 
world--preventing terrorists from acquiring, transporting, and using 
radiological materials as a weapon of terror.
    If we are to think about reauthorizing this program, which I 
understand the Chairman is inclined to do, this subcommittee, in its 
oversight responsibilities, needs to possess ways to evaluate and 
measure the outcomes of DNDO's R&D activities, their resource requests, 
and their asset allocations.
    I think its safe to say that over the years, this subcommittee has 
seen many examples of DNDO pushing for acquisition decisions well 
before some technologies had demonstrated that they could live up to 
the promises made. In my opinion, we must deal with this issue directly 
in any potential legislative language.
    It will be paramount that DNDO policy and strategy be translated 
into operations, tactics, and implementation that meet the requirements 
of Department-wide needs, and that this subcommittee be able to 
transparently see that process. Furthermore, there are natural tensions 
among Federal agencies created by overlapping missions in the nuclear 
arena, especially in the field of nuclear detection. This fact of life 
does not make matters of policy and strategy easy to implement, nor 
outcomes easily measured.
    Since 2009, under President Obama's administration, DNDO has made 
important changes, and made especially good progress in nuclear 
forensics, and I hope that our Congressional oversight efforts also 
have had a positive effect. In 2010, the committee, under then-Chairman 
Thompson, wrote a combined S&T DNDO authorization, H.R. 4842, which set 
out the premise that research and development, and operations and 
procurement, are best left to separate organizations in order to avoid 
obvious and glaring conflicts of interest. While not all goals of that 
legislation were achieved, the message was clearly received by the 
administration.
    What I hope we are going to hear today is, ``How can DNDO's mission 
can be better defined''? Some claim there is still confusion as to 
whether the office is an end-to-end R&D procurement entity for all 
things nuclear/radiological . . . is it a development entity . . . or 
an operational entity?
    Some still question whether there is an inherent conflict of 
interest when an office, agency, or program, is both an R&D workshop 
and a procurement platform. I hope we can explore some of these 
questions today.
    Let me finish with this thought. On the ground, and every day, our 
nuclear deterrence effort as a Nation depends on motivated and vigilant 
officers across the globe, supplied with the best equipment and 
intelligence we can give them. Officers working at our Nation's ports 
of entry have an especially complex and difficult job. Thousands of 
decisions are made every day to clear a container or a personal or 
commercial vehicle for transit into the United States.
    Other cargo requires further inspection--or even denial of entry--
or an interdiction action on a vehicle or person. That is the hard, 
cold, repetitive, and everyday reality of our mission to prevent this 
kind of violent nuclear attack. However, this is part of the flow of 
commerce in the world's premier and largest trading market, the United 
States, and we are grateful for all of our dedicated men and women in 
the field who perform these vital tasks.
    Mr. Chairman, I look forward to today's testimony, and I yield 
back.

    Mr. Meehan. Let me thank the Ranking Member for her opening 
statement but also for her focus on the idea that our objective 
is to do, you know, effective oversight to assure that the 
resources are being appropriately focused. We look forward to 
the ability for the record to speak to those particular issues.
    Other Members of the committee who may come in are reminded 
that opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 29, 2014
    Thank you, Mr. Chairman, for holding this hearing on the Domestic 
Nuclear Detection Office, and the radiological and nuclear smuggling 
threats it faces. I want to thank the director of DNDO, and the GAO 
team for coming in to testify today.
    We will hear testimony about some of the successes, and some of the 
challenges that still exist in preventing terrorists from acquiring, 
transporting, and using radiological materials as a potential weapon of 
terror.
    We know that our nuclear detection strategy and equipment at the 
time of the 9/11 attacks was limited in its capability. Radiation 
detectors could sometimes detect radiation, but could not identify 
isotopes. We also found out that sensing equipment could reveal dense 
objects, but it would be almost impossible to pick out a small piece of 
Special Nuclear Material, or SNM. Today, as technologies have become 
more capable, they can fill more gaps in the current nuclear detection 
architecture.
    But there's still a long way to go to fulfill the goals we set for 
DNDO, and many questions to ask. For example, are we making progress on 
remote detection that might offer a way to monitor chokepoints in the 
United States that terrorists might pass through transporting weapons?
    And, we have identified other gaps, like the need for long-range 
sensors that can operate in isolated areas, and systems that can 
perform efficiently in highly-congested public maritime areas. These 
kinds of technologies and sensors do not come easily, or inexpensively.
    But, we need to have systems under development that have the 
potential to reduce false positives, speed the flow of commerce, and 
reduce false negatives--all of which improve security. Over the years, 
Congress has appropriated billions of dollars to deploy systems to 
prevent nuclear smuggling, and to support R&D on advanced technologies.
    What we hope for is that money Congress spends to achieve these 
refinements can make future technologies more effective, and create an 
R&D pipeline that is intended to generate a steady stream of new 
technologies and systems.
    However, Congress must be sure that the money it spends for this 
technological pipeline is used wisely and efficiently, and that testing 
and certification of these cutting-edge tools are thoroughly evaluated 
and validated. Over the years, we have seen too many reports about 
detection technologies being deployed without proper testing, and 
without certification.
    The development & procurement of sophisticated technologies is not 
a simple matter, but it is also not one that should be opaque and 
overly complicated for Congress to understand.
    We know that DNDO has an important role across the Department, and 
that it has close relationships with DHS's front-line programs, and 
other Federal agencies, who depend on them for support and advice.
    The challenge for this committee is how to evaluate how well DNDO 
meets the operational requirements for DHS programs, how it spends its 
money and prioritizes its R&D, and how it fulfills its responsibilities 
in coordinating the Global Nuclear Detection Architecture.
    We will hear testimony from GAO today about the need for a clearer, 
and measurable picture of its goals, strategies, and procedures.
    It is imperative that the new Secretary makes sure no more money is 
wasted on devices that cannot be properly evaluated, tested, and 
certified before being procured and placed into duty. Our country's 
safety depends on it.
    Mr. Chairman, I look forward to today's testimony, and I yield 
back.

    Mr. Meehan. We are pleased to have a distinguished panel of 
witnesses before us here today on this important topic.
    First, Dr. Huban Gowadia is the director of the Domestic 
Nuclear Detection Office at the Department of Homeland 
Security. Under her leadership, DNDO develops nuclear detection 
capabilities, it measures detector system performance, it 
ensures effective response to detection alarms, it conducts 
transformational research and development, and it coordinates 
the improvement of technical nuclear forensics capabilities.
    Before joining DNDO, Dr. Gowadia led DHS's Science and 
Technology countermeasures--the countermeasures testbeds and 
also worked as a checkpoint program manager at the Office of 
Security Technologies in the Transportation Security 
Administration.
    We are joined, as well, by Mr. David Trimble, who serves as 
the director of the U.S. Government Accountability Office's 
Natural Resources and Environment Group. Mr. Trimble provided 
leadership and oversight on the United States and international 
nuclear security and clean-up issues.
    Mr. Trimble joined GAO in 2009, and, previously, he worked 
at the Department of State's Political-Military Affairs Bureau 
as the director of the Office of Defense Trade Controls 
Compliance.
    The witnesses' full written statements will appear in the 
record.
    I know there are extensive written statements, but I want 
to give you the opportunity to focus on where you would like to 
go in your testimony, Dr. Gowadia. So we now recognize you for 
your 5 minutes to testify.

   STATEMENT OF HUBAN A. GOWADIA, DIRECTOR, DOMESTIC NUCLEAR 
       DETECTION OFFICE, DEPARTMENT OF HOMELAND SECURITY

    Ms. Gowadia. Thank you, Chairman. Good afternoon, Chairman 
Meehan and Ranking Member Clarke. Thank you for the opportunity 
to discuss the Domestic Nuclear Detection Office, or DNDO's, 
progress in protecting the homeland from nuclear and 
radiological threats.
    I am honored to appear before you today to testify with my 
distinguished colleague, David Trimble. Your support and 
oversight and constructive feedback from the Government 
Accountability Office are critical to our improvement and 
continued success.
    As you are aware, in 2005, DNDO was created within the 
Department of Homeland Security as an interagency office with a 
singular focus: Preventing nuclear terrorism. We do so through 
two missions, nuclear detection and nuclear forensics. Let me 
begin with the latter.
    DNDO's National Technical Nuclear Forensics Center was 
established to provide centralized stewardship, planning, and 
integration for Federal nuclear forensics and attribution 
activities. At the time, the state of nuclear forensics 
capabilities were far from perfect, as emphasized in reports by 
the National Academy of Sciences, the GAO, and others. Since 
then, DNDO has advanced nuclear capabilities and improved 
collaborative National exercises by making them remarkably 
realistic. Focusing on what was then an in extremis National 
capability, DNDO has supported 19 new nuclear forensic 
scientists, and we are on track to add another 35 into the 
nuclear forensics field by 2018. I should say, a total of 35 by 
2018.
    So let me switch now to the detection mission. DNDO was 
established to coordinate the United States Government's 
radiological and nuclear detection capabilities through the 
construct of the Global Nuclear Detection Architecture. This is 
a framework for detecting, analyzing, and reporting on nuclear 
and other radioactive materials that are out of regulatory 
control. In accordance with the GAO's recommendations and along 
with our interagency partners, we developed the 2010 Global 
Nuclear Detection Architecture Strategic Plan. Recently, we 
updated it in 2014 based on feedback from the National Academy 
of Sciences.
    DNDO is also mandated to conduct an aggressive program of 
transformational research and development. As a result of our 
efforts, several breakthrough sensing materials with enhanced 
detection characteristics have transitioned from the laboratory 
to commercially available products.
    We also have a robust test and evaluation program. To date, 
DNDO has conducted more than 100 test campaigns and, with the 
National Institute of Standards and Technology, developed 
consensus standards for radiation detection equipment. Today, 
we have a total of 24 standards for homeland security 
applications.
    To implement the domestic component of the Global Nuclear 
Detection Architecture, we have made much progress in equipping 
law enforcement officers and public safety officials with the 
necessary capabilities, information, and training. For 
instance, through the Securing the Cities program, we now have 
robust regional nuclear detection capabilities in major urban 
areas, including the New York City region and the L.A.-Long 
Beach region. Through collaborative interagency efforts, we 
have provided training to over 27,000 law enforcement personnel 
across the Nation. Annually, we conduct approximately 15 
exercises to stress operator abilities to detect illicit 
nuclear and other radioactive material.
    In our role as the Department lead for acquiring radiation 
assistance, we bring a disciplined approach to procurement. 
DNDO's efforts have ensured that all Coast Guard boarding 
parties carry radiation detection equipment. All incoming 
general aviation aircraft are met by Customs and Border 
Protection Officers with detectors. One hundred percent of 
conveyances entering our Nation at land ports of entry are 
scanned for radiological and nuclear material, and almost 100 
percent of maritime cargo is similarly scanned at our seaports 
of entry. Finally, the Transportation Security Administration's 
Visible Intermodal Prevention and Response teams are also 
equipped with radiation detectors.
    To ensure that we do not repeat the same issues that led to 
the cancellation of the Advanced Spectroscopic Portal Program, 
DNDO significantly improved acquisition management governance, 
policy, and processes. We have implemented a disciplined 
solution development process, establishing a common lexicon 
with consistent practices and deliberately and continually 
involving operational partners. As a result, we have increased 
efficiencies, promoted programmatic and budgetary transparency, 
and bolstered accountability for all our programs.
    Looking forward, we will continue to build and sustain 
critical partnerships across the nuclear security enterprise. 
We will use an effective risk-informed approach to guide our 
efforts. We will strive to leverage technical breakthroughs to 
enhance our National nuclear detection and forensics 
capabilities. Importantly, we will continue to improve the 
discipline in procuring and deploying systems to meet the needs 
of our operational partners.
    Thank you again for this opportunity, and I look forward to 
your questions.
    [The prepared statement of Ms. Gowadia follows:]
                 Prepared Statement of Huban A. Gowadia
                             July 29, 2014
    Chairman Meehan, Ranking Member Clarke, and distinguished Members 
of the subcommittee, thank you for the opportunity to appear before you 
today. I appreciate your interest in the advancements the Department of 
Homeland Security's (DHS) Domestic Nuclear Detection Office (DNDO) has 
made in preventing nuclear terrorism. I am honored to testify with my 
distinguished colleagues from the Government Accountability Office and 
the National Academy of Sciences. Your support and oversight, and their 
constructive assessments and feedback, are critical to our improvement 
and continued success.
    Nuclear terrorism remains a serious risk because of its potential 
consequences. As President Obama stated in his speech at South Korea's 
Hankuk University in March 2012, ``We know that just the smallest 
amount of plutonium--about the size of an apple--could kill hundreds of 
thousands and spark a global crisis. The danger of nuclear terrorism 
remains one of the greatest threats to global security.'' To address 
this risk, DNDO was established as a unique interagency organization 
with a singular focus on preventing nuclear terrorism. Reducing the 
risk of nuclear terrorism is a whole-of-Government challenge, and DNDO 
works with Federal, State, local, Tribal, territorial, and 
international partners as well as those in the private sector, 
academia, and the National laboratories to fulfill its mission.
                              authorities
    Recognizing the threat posed by nuclear and other radioactive 
materials, DNDO was created by National Security Presidential Directive 
(NSPD)-43 and Homeland Security Presidential Directive (HSPD)-14 and 
subsequently codified by Title V of the Security and Accountability For 
Every (SAFE) Port Act (Pub. L. No. 109-347), which amended the Homeland 
Security Act of 2002. Pursuant to section 1902 of the Homeland Security 
Act, DNDO is required to develop, with the approval of the Secretary 
and in coordination with the Departments of Energy, State, Defense, and 
Justice, an enhanced global nuclear detection architecture, and is 
responsible for implementing the domestic portion. The architecture 
serves as a framework for detecting (through technical and non-
technical means), analyzing, and reporting on nuclear and other 
radioactive materials that are out of regulatory control. Non-technical 
detection refers to an alert caused by law enforcement or intelligence 
efforts and collected by GNDA partners under their statutory 
authorities and consistent with National policy. DNDO is also charged 
to enhance and coordinate the nuclear detection efforts of Federal, 
State, local, and Tribal governments and the private sector to ensure a 
managed, coordinated response. To accomplish this, DNDO leads programs 
to develop nuclear detection and forensics capabilities, measure 
detector system performance, ensure effective response to detection 
alarms, and conduct transformational research and development for 
advanced detection technologies.
    In 2006, DNDO's National Technical Nuclear Forensics Center was 
established by NSPD-17/HSPD-4 and later authorized by the 2010 Nuclear 
Forensics and Attribution Act (Pub. L. No. 111-140). The Center was 
given responsibilities to provide centralized stewardship, planning, 
and integration for all Federal nuclear forensics and attribution 
activities. The act also established DNDO's National Nuclear Forensics 
Expertise Development program and required DNDO to lead the development 
and implementation of the National Strategic Five-Year Plan for 
Improving the Nuclear Forensics and Attribution Capabilities of the 
United States.
    These authorities have directed our focus in preventing nuclear 
terrorism through the enhancement of nuclear detection and technical 
forensics capabilities. In both instances, we rely on the critical 
triad of intelligence, law enforcement, and technology. Thus, to 
maximize the Nation's ability to detect and interdict a threat, it is 
imperative that we apply detection technologies in operations that are 
driven by intelligence indicators, and place them in the hands of well-
trained law enforcement and public safety officials. Similarly, to 
enhance attribution capabilities, the U.S. Government (USG) must ensure 
that information from law enforcement, intelligence, and technical 
nuclear forensics is fused to identify the origin of the material or 
device and the perpetrators.
    While we have made significant improvements in both detection and 
forensics over the years, the threat of nuclear terrorism persists, and 
requires constant vigilance.
          developing the global nuclear detection architecture
    As recognized by the Government Accountability Office in past 
testimonies, DNDO has made progress in its strategic planning efforts. 
In December 2010, DNDO issued the first-ever Global Nuclear Detection 
Architecture Strategic Plan to guide the development and implementation 
of USG detection programs, activities, and capabilities. In April 2012, 
the Secretary issued a DHS Global Nuclear Detection Architecture 
Implementation Plan, which identified priorities, necessary 
capabilities, and monitoring mechanisms to assess progress. DNDO has 
worked with interagency partners to update the Global Nuclear Detection 
Architecture Strategic Plan. The 2014 Strategic Plan presents an 
updated definition and vision for the global nuclear detection 
architecture, as well as a mission, goals, and objectives for 
interagency efforts to detect, analyze, and report on nuclear or other 
radioactive materials that are out of regulatory control.
    The global nuclear detection architecture is a multi-faceted, 
layered, defense-in-depth framework, with the objective of making the 
illicit acquisition, fabrication, and transport of a nuclear or 
radiological device, material, or components prohibitively difficult. 
DNDO also relies on a well-conceived arrangement of fixed and mobile 
radiological and nuclear technical detection capabilities to present 
terrorists with many obstacles to a successful attack, greatly 
increasing costs, difficulty, and risk, and thereby deterring them.
    To develop such a multi-faceted global nuclear detection 
architecture, DNDO continually assesses current and planned 
capabilities against the evolving radiological and nuclear threat. DNDO 
uses rigorous risk assessments as one means to do so. Since 2007, and 
as directed by HSPD-18 (Medical Countermeasures Against Weapons of Mass 
Destruction), DNDO has collaborated with the DHS Science & Technology 
Directorate (S&T) to produce the Integrated Chemical, Biological, 
Radiological, and Nuclear Terrorism Risk Assessment. DNDO leads the 
biennial radiological and nuclear terrorism risk assessment, which is 
then combined with similar biological and chemical risk assessments. To 
better address the evolving threat, DNDO has improved the threat models 
in this risk assessment by adding an adaptive adversary model and is 
working with Department of Energy (DOE) National Laboratories to 
enhance improvised nuclear device models. DNDO has also supported DHS 
risk assessments such as the Strategic National Risk Assessment and the 
Homeland Security National Risk Characterization. These risk 
assessments, coupled with requirements from our operational partners, 
inform DNDO resource allocations.
    While USG efforts and programs are critical, developing a global 
nuclear detection architecture relies largely on the decisions of 
sovereign foreign partners to develop and enhance their own National 
and regional detection programs. DNDO contributes to interagency 
efforts led by the Department of State by laying the groundwork to 
assist partner nations in developing defense-in-depth approaches to 
detecting illicitly-trafficked nuclear or other radioactive materials. 
DOE's National Nuclear Security Administration's (NNSA) Second Line of 
Defense program is an essential component of this defense-in-depth 
approach. This program helps strengthen the global nuclear detection 
architecture by installing and supporting the installation of fixed and 
mobile radiation detection equipment at high-priority locations outside 
the United States. DNDO has worked closely with NNSA on training 
initiatives associated with building and sustaining foreign partners' 
radiation detection capabilities. DNDO has assisted in the development 
of guidelines and best practices through the Global Initiative to 
Combat Nuclear Terrorism and the International Atomic Energy Agency 
(IAEA) to outline the key characteristics of an effective architecture. 
To date, IAEA has used these guidelines and best practices in regional 
training courses to help more than 20 nations initiate planning of 
national-level detection architectures, with over 50 national-level 
planners trained in architecture development. Just two weeks ago (July 
14-18, 2014), DNDO helped the IAEA expand its Nuclear Security 
Detection Architecture awareness course during a train-the-trainer 
session to further develop the international instructor pool. By the 
end of this calendar year, the IAEA will have successfully implemented 
seven regional awareness courses in English, French, and Spanish. This 
strategic partnership will continue to serve as a ``force multiplier'' 
for USG nuclear security efforts for years to come.
      conducting transformational research and developing systems
    DNDO is also responsible for conducting an aggressive, 
evolutionary, and transformational program of research and development 
to generate and improve technologies to technically detect nuclear and 
radioactive materials. DNDO's transformational research and development 
efforts seek to achieve dramatic advancements in technologies to 
enhance our National detection and forensics capabilities. These 
developments may also reduce the cost and operational burden of using 
advanced technology in the field to maintain an enhanced level of 
protection. Annually, DNDO updates its research and development 
strategy based on prevailing risk, advancements in technology, and the 
availability of funding.
    Although significant progress has been made in addressing the gaps 
and needs of the global nuclear detection architecture and nuclear 
forensics, several challenges remain that require sustained investment. 
DNDO's technical challenges include the need for systems that:
  <bullet> Are cost-effective with sufficient technical performance to 
        ensure wide-spread deployment;
  <bullet> Can detect special nuclear material, even when heavily 
        shielded;
  <bullet> Facilitate enhanced wide-area searches in a variety of 
        scenarios, to include urban and highly cluttered environments;
  <bullet> Can be used to monitor traffic in challenging pathways, such 
        as between ports of entry along our land and sea borders; and
  <bullet> Support the forensics determination of origin and process 
        history of seized material.
    DNDO has and will continue to advance fundamental knowledge in 
nuclear detection and forensics through a sustained long-term 
investment in our Exploratory Research program and Academic Research 
Initiative. These efforts directly address the aforementioned 
challenges through basic and early-applied research to feed more mature 
research and development projects such as DNDO's Advanced Technology 
Demonstrations.
    Equally important, the Academic Research Initiative is building the 
capabilities of universities to develop next generation scientists and 
engineers in areas such as advanced materials, nuclear engineering, 
radiochemistry, and deterrence theory. Since its inception, 57 grants 
have been awarded to more than 42 academic institutions across the 
country. In 2013 alone, the Academic Research Initiative directly 
supported 140 students, published 108 papers, and conducted 180 
conference presentations. And, we are beginning to see these projects 
move up the technology pipeline. Just this year, a new room temperature 
thallium-based semiconductor detector transferred from Northwestern 
University to our Exploratory Research program. Nuclear resonance 
cross-sections measured at Duke University are being used in our 
shielded special nuclear material detection projects and background 
radiation measurements performed by University of California at 
Berkeley are being used in support of operational programs across the 
interagency.
    Several DNDO-sponsored research efforts have also led to new 
commercial products that provide enhanced operational capabilities to 
Federal, State, and local law enforcement and public safety personnel. 
Even before a Helium-3 shortage was identified, DNDO teamed with the 
Defense Threat Reduction Agency to explore options for better, more 
cost-effective alternatives for neutron detection (Helium-3 is a gas 
that is widely used to detect neutrons that are emitted by certain 
nuclear and other radioactive materials. Helium-3 results from the 
radioactive decay of tritium. As the need for tritium for nuclear 
weapons decreased, so too did the availability of Helium-3.) For portal 
systems, which require the largest quantities of this gas, DNDO worked 
with industry and is now deploying alternative detection technologies 
that do not require Helium-3. This enables the country to devote the 
scarce supplies of Helium-3 to those applications where no substitutes 
are possible. We are also testing alternative systems for use in 
mobile, backpack, and hand-held radiation detectors, several of which 
have already shown performance superior to the current-generation 
systems. Importantly, due to a collaborative USG-wide effort to address 
the shortfall, our USG strategic reserve of Helium-3 has increased by 
70% since 2009.
    Other recent DNDO technological successes that transitioned from 
laboratories to commercially-available products include:
  <bullet> Advanced radiation-sensing materials such as Cesium Lithium 
        Yttrium Chloride, Strontium Iodide, and Stilbene, which have 
        enhanced detection characteristics and can be used to build 
        more capable systems featuring simplified electronics, low 
        power requirements, and greater reliability;
  <bullet> New electronics and advanced algorithms that support 
        networked radiation detection for improved wide-area search 
        capabilities;
  <bullet> Compact dual-energy X-ray generators with improved density 
        discrimination and higher shielding penetration that have been 
        integrated into commercially available mobile radiography 
        systems; and
  <bullet> Software to automatically detect special nuclear material 
        and shielding material in radiography images.
    DNDO continues to develop breakthrough technologies that increase 
performance and reduce the operational burdens of our front-line 
operators. DNDO continues to work closely with other DHS components to 
improve their mission performance.
    We are collaborating with U.S. Customs and Border Protection's 
(CBP) Laboratories and Scientific Services to use machine learning to 
greatly reduce the number of nuisance alarms in radiation portal 
monitors; working with the Massachusetts Port Authority, DHS S&T, and 
the United Kingdom Home Office to develop and evaluate the next 
generation non-intrusive inspection imaging equipment; and continuing 
to jointly evaluate parameter-setting modifications to reduce the 
number of alarms from naturally-occurring radioactive material. In 
fact, after a rigorous program of laboratory tests, modeling and 
simulation, field trials, and successful pilots at two ports of entry, 
CBP will deploy a new technique to the 26 largest seaports by the end 
of 2014. It is anticipated that this effort will reduce wait times and 
yield operational efficiencies.
    In addition to CBP, DNDO worked closely with the U.S. Coast Guard 
(USCG), the Transportation Security Administration (TSA), and State and 
local partners to identify key operational requirements for the design 
of next-generation radioisotope identification devices that can be used 
by law enforcement officers and technical experts during routine 
operations to identify radioactive materials. Based on the enhanced 
detection material lanthanum bromide and improved algorithms, this new 
hand-held technology is easy-to-use, lightweight, and more reliable 
and, because it contains built-in calibration and diagnostics, has a 
much lower annual maintenance cost. The new system is receiving very 
positive reviews from operators in the field.
                   characterizing system performance
    DNDO's technology efforts are coupled with a rigorous test and 
evaluation program. Over the years, DNDO's test program has grown and 
matured. To date, we have conducted more than 100 test and evaluation 
campaigns at more than 40 laboratory and operational venues, and 
evaluated systems including pagers, handhelds, portals, backpacks, and 
vehicle-, boat-, aircraft,- and spreader bar-mounted detectors, as well 
as next-generation radiography technologies. To ensure the equipment is 
evaluated in the manner in which it will be used, these test campaigns 
are always planned and executed with operational users. In addition, we 
include interagency partners and use peer-reviewed processes. The 
results from DNDO's test campaigns have informed Federal, State, local, 
and Tribal partners on the technical and operational performance of 
detection systems, allowing them to select the most suitable equipment 
and implement the most effective concepts of operation.
    DNDO leads the development of technical capability standards, and 
in collaboration with the National Institute of Standards and 
Technology, also supports the development, publication, and adoption of 
National consensus standards for radiation detection equipment. A total 
of 24 standards, including 11 U.S. standards with the American National 
Standards Institute, 10 international standards with the International 
Electrotechnical Commission, and 3 technical capability standards now 
exist for homeland security applications. We have assessed commercially 
available detection systems against National and international 
standards and in various operational scenarios. Notably, we recently 
completed the Illicit Trafficking Radiation Assessment program, a 
collaboration with the European Commission's Joint Research Center and 
the IAEA to evaluate nearly 80 instruments against consensus standards. 
The results enabled our stakeholders to compare the performance of 
commercially available radiation detection equipment and provided 
manufacturers with constructive feedback on their products.
  implementing the domestic component of the global nuclear detection 
                              architecture
    DNDO is instrumental in implementing the domestic component of the 
global nuclear detection architecture. In conjunction with Federal, 
State, local, Tribal, and territorial operational partners, DNDO 
applies a disciplined approach to procure small- and large-scale 
radiation detection and/or identification systems and deploy them at 
ports of entry, along our land and maritime borders, and in the 
interior of the United States. In addition, as part of DHS's Strategic 
Sourcing efforts, DNDO is the Department's commodity manager for hand-
held radiological and nuclear detection equipment. This enables us to 
take advantage of technical advancements and achieve cost savings by 
leveraging the volume demand of Department-wide and other Federal 
users.
    DNDO's collaborative system acquisition efforts have ensured that 
all USCG boarding parties carry radiation detection equipment; all in-
coming general aviation flights are met by CBP Officers with radiation 
detectors; 100% of conveyances entering our Nation at land ports of 
entry are scanned for nuclear and other radioactive materials; almost 
100% of maritime cargo is similarly scanned at our sea ports of entry; 
and the TSA's Visible Intermodal Prevention and Response teams are 
equipped with radiation detectors. Our partnership with CBP was 
leveraged during the recovery efforts from Hurricane Sandy. DNDO was 
able to replace 39 radiological detector panels and nine operator 
booths within 2 weeks of the storm, thereby supporting the quick 
resumption of port operations at A.P. Moller, Maher, Port Newark 
Container, New York Container, Global, and Red Hook terminals in New 
York and New Jersey. While technology acquisition and deployments are 
critical, we must also ensure that the training, exercise, and cross-
jurisdictional protocols integral to mission success are adopted and 
sustained by operational partners. As such, DNDO provides program 
assistance services to Federal, State, local, Tribal, and territorial 
stakeholders who are developing or enhancing radiological and nuclear 
detection capabilities. This support includes assistance in developing 
and integrating local or regional programs into the global nuclear 
detection architecture, guiding the development of concepts of 
operations and standard operating procedures, and developing training 
and exercise products to ingrain those procedures into day-to-day 
activities.
    DNDO has made considerable progress in enhancing National radiation 
detection capabilities by:
  <bullet> Engaging with 29 States to raise awareness and begin 
        developing formal radiological and nuclear detection programs. 
        By the end of fiscal year 2015, DNDO plans to expand its 
        efforts to all 50 States.
  <bullet> Developing an enduring partnership with State and local 
        jurisdictions, through the Securing the Cities program, 
        resulting in a robust regional nuclear detection program in the 
        New York City/Jersey City/Newark region. Based on lessons 
        learned in this implementation, DNDO expanded the Securing the 
        Cities program in fiscal year 2013 to the Los Angeles/Long 
        Beach area and will select a third region later this fiscal 
        year.
  <bullet> Supporting domestic maritime capability development by 
        working with regional Area Maritime Security Committees to 
        develop operational procedures, training, and exercises to 
        reinforce their Area Maritime Security Plans and address the 
        small vessel threat.
  <bullet> Deploying Mobile Detection Deployment Units to provide 
        radiation detection and communications equipment for Federal, 
        State, and local agencies to augment their capabilities during 
        special events or in response to elevated threat conditions. To 
        date, these units have been deployed over 150 times.
    DNDO provides training products and support to develop, enhance, 
and expand radiological and nuclear detection capabilities. In 
partnership with the Federal Emergency Management Agency (FEMA) the 
Federal Law Enforcement Training Center, DOE, and the Department of 
Justice (DOJ), DNDO develops and implements protocols and training 
standards for the effective use of radiation detection equipment and 
associated alarm reporting and resolution processes. DNDO has developed 
42 separate courses in support of emerging detection technologies and 
operational environments to support our Federal, State, and local 
stakeholders. Since 2005, more than 27,000 law enforcement and public 
safety personnel from 35 States have participated in DNDO-supported 
radiological and nuclear detection training.
    DNDO also assists State and local partners in developing, 
designing, and conducting exercises that are compliant with the 
Homeland Security Exercise and Evaluation program methodology. The 
exercises provide valuable hands-on experience for personnel performing 
radiological and nuclear detection operations and assist decision 
makers in integrating the detection mission into their daily 
operations. To date, DNDO has conducted exercises with 21 States and 
annually supports up to 15-20 exercises. DNDO continues to develop and 
apply standardized and customizable exercise templates and guidelines 
evaluating the implementation and performance of Federal, State, and 
local radiological and nuclear detection programs while fostering the 
exchange of ideas and best practices amongst State and local partners.
    DNDO fields a unique Red Team to objectively assess the operational 
effectiveness and performance of DNDO programs and deployed 
radiological and nuclear detection capabilities at the Federal, State, 
and local levels. Our Red Team works across the inter-agency employing 
an all-of-Government approach to collectively improving our National 
capabilities. At the Federal level we partner with the Departments of 
Energy, Defense, and Justice; within DHS with CBP, FEMA, TSA, USCG, and 
U.S. Secret Service; and with a myriad of State and local agencies 
across the United States. The Red Team evaluates deployed systems and 
operations and their associated tactics, techniques, and procedures, in 
as-close-to-realistic environments as possible. As covert and overt 
assessments are generally the only opportunity for operators of 
radiological and nuclear detection systems to gain experience detecting 
uncommon nuclear sources, these operations provide valuable feedback on 
the performance of tactics, techniques, and procedures. This feedback 
enables operators to improve their concepts of operation and readiness. 
For the past 5 years, DNDO's Red Team has averaged more than 25 overt 
and covert assessments per year.
    DNDO is responsible for enhancing and coordinating the nuclear 
detection efforts of Federal, State, local, and Tribal governments and 
the private sector to ensure a managed, coordinated response. We also 
coordinate across the interagency to establish protocols and procedures 
to ensure that the technical detection of unauthorized nuclear 
explosive devices, fissile material, or other active radioactive 
material is promptly reported to the Secretaries of Homeland Security, 
Defense, and Energy, the Attorney General, and others as appropriate 
for action by law enforcement, military, emergency response, or other 
authorities.
    DNDO's Joint Analysis Center is essential in enhancing situational 
awareness, as well as providing technical support and informational 
products, to Federal, State, and local partners. The Joint Analysis 
Center employs a secure web-based dashboard to collaborate with mission 
partners and uses a geographic information system to show detection 
information, detectors, situational awareness reports, and other 
overlays in a geospatial viewer. Using the Joint Analysis Center 
Collaborative Information System, DNDO facilitates nuclear alarm 
adjudication and the consolidation and sharing of information and 
databases. This system provides our State and local partners with the 
ability to manage, document, and execute a radiological and nuclear 
detection program. This includes the ability to electronically maintain 
training, certification, and Memoranda of Understanding and Memoranda 
of Agreement between jurisdictions. The system also consolidates and 
maintains a database of detector equipment and Nuclear Regulatory 
Commission State licensees. Through this information system, we connect 
to the Triage system, maintained by DOE's NNSA, to enable a seamless 
transition when National-level adjudication assistance is required. To 
increase awareness of lost and stolen sources and other relevant 
information, DNDO's Joint Analysis Center publishes weekly information 
bulletins, summarizing relevant news articles and providing useful 
facts about radioactive materials.
    In addition to direct interaction with individual States and law 
enforcement agencies, DNDO hosts biennial State and Local Stakeholder 
Working Group meetings and annual Executive Steering Council meetings 
with law enforcement and other supervisory personnel to exchange best 
practices and to obtain feedback on DNDO's initiatives. The State and 
Local Stakeholder Working Group provides a forum for DNDO to meet with 
our stakeholders to discuss their current activities, lessons learned, 
and planned detection initiatives. This forum also provides State and 
local leaders an opportunity to convey their perspective on mission 
needs and radiation detection requirements, so that DNDO can develop 
the necessary products and services to support their efforts. The 
Executive Steering Council provides policy coordination and 
implementation between DNDO and senior-level State and local leaders 
regarding radiation detection programs, and serves as a mechanism to 
solicit input from senior leaders on their successes, evolving 
requirements, and challenges, as well as for DNDO to apprise them of 
on-going efforts to support their jurisdictions. Both the Stakeholder 
Working Group and the Executive Steering Council have been received 
favorably and continue to reinforce the relationship between DNDO and 
key stakeholders.
                    acquisition process improvements
    Initiated in 2004 and canceled in 2011, the Advanced Spectroscopic 
Portal program was started with the goal of improving the performance 
of the current radiation detection system that is deployed to our 
seaports and land border crossings. To ensure we did not repeat the 
same issues that led to the cancellation of the program, including 
close end-user collaboration, DNDO and CBP completed a Lessons Learned/
Post-Implementation Review and identified 32 lessons learned, including 
significant findings in acquisition management. DNDO will share these 
observations with the new DHS Joint Requirements Council to ensure 
maximum benefit is achieved from these past difficulties. Based in part 
on these lessons learned, DNDO has significantly bolstered acquisition 
management policy and strengthened its implementation via robust and 
disciplined governance and program management processes. In doing so, 
we ensure programs are selected based on sound business cases and are 
effectively managed, resulting in an efficient and effective use of 
DNDO's appropriated funds.
    To enhance mission delivery and improve investment management, DNDO 
designed the Solution Development Process. Aligned with DHS Acquisition 
Management Directive 102-01, the Solution Development Process 
institutes an integrated governance approach to program and project 
oversight throughout the systems engineering life cycle. The process 
brings all programs and projects under governance--establishing a 
shared language, with common practices to increase efficiencies, 
promote programmatic and budgetary transparency, and bolster 
accountability. It aligns with DHS enterprise architecture, acquisition 
management, and capital planning and investment processes. Further, the 
framework guides management, through the Governance Review Board, and 
Integrated Product Teams in the delivery of new solution concepts to 
end-users and stakeholders, while maintaining a focus on DNDO's 
mission, goals, and objectives. As a critical component of the process, 
it includes active involvement of operational partners, who serve as 
Lead Business Authorities, and requires rigorous technical reviews at 
each programmatic stage. In adhering to the process, DNDO ensures 
current and future programs are appropriately structured and have the 
necessary oversight for success. DNDO will continue to incorporate 
lessons learned and process improvements as the process matures, 
sharing them throughout DHS to strengthen Departmental Unity of 
Effort--one of the Secretary's top priorities.
    Recognizing the important contributions and innovations of private 
industry, National laboratories, and academia, DNDO has evolved its 
acquisition focus from one that is predominantly fueled by a 
Government-funded, Government-managed development process to one that 
relies upon industry-led development. As such, DNDO technology 
development programs now proceed with a ``commercial first'' approach; 
engaging first with the private sector for solutions and only moving to 
a Government-sponsored and -managed development effort if necessary. 
This approach leverages industry-led innovation, takes advantage of 
industry's innate flexibility and ability to rapidly improve 
technologies, and reduces Government-funded development efforts. In 
some cases, shifting to commercial-based acquisitions will reduce the 
total time to test, acquire, and field technology.
                         forensics capabilities
    In the event of an act of nuclear terrorism or interdiction there 
will be enormous pressure for rapid, accurate attribution. The 
resulting USG response will have to be supported by sound scientific 
evidence supporting the determination of who was responsible, for which 
the bar will be set very high by our stakeholders and allies. Nuclear 
forensics--as the technical pillar of attribution--will support 
leadership decisions. DNDO's National Technical Nuclear Forensics 
Center focuses on continuously evaluating and improving the nuclear 
forensic capabilities with specific responsibilities to:
  <bullet> Improve the readiness of the overarching USG nuclear 
        forensic capabilities, from pre- to post-detonation, through 
        centralized stewardship, planning, assessment, gap analysis, 
        exercises, improvement, and integration;
  <bullet> Advance the technical capabilities of the USG to perform 
        forensic analyses on pre-detonation nuclear and other 
        radioactive materials; and
  <bullet> Build and sustain an expertise pipeline for nuclear forensic 
        scientists.
    Operational readiness has improved markedly in recent years. DNDO 
has led the way in integrating the nuclear forensics community through 
the alignment of program capabilities, coordination of research and 
development and operational activities, and accelerated capability 
development through synchronized interagency investments. The 
interagency uses two primary DNDO-led mechanisms, the Nuclear Forensics 
Executive Council and Steering Committee, to facilitate consistent 
coordination across the USG. DNDO is also leading the interagency 
effort to update the National Strategic Five-Year Plan for Improving 
the Nuclear Forensics and Attribution Capabilities of the United States 
and to synchronize resources among partner agencies through an 
established Budget Crosscut. Requirements are now regularly identified 
and developed by the Nuclear Forensics Requirements Center, co-chaired 
by DNDO and the FBI.
    Since the Nuclear Security Summit in 2010, international 
partnerships in nuclear forensics have greatly expanded, resulting in 
stronger National and international capabilities. DNDO provides 
subject-matter expertise to numerous initiatives, including 
multinational nuclear forensics table-top exercises and documentation, 
to enhance understanding among policy makers, law enforcement 
officials, and scientists, and to encourage and assist other nations in 
developing their National capabilities.
    Forensics exercises have become realistic and complex, with 
intensive multi-agency planning among the FBI, DOE, Army, Air Force, 
and DNDO. Many of the exercises now include State and local law 
enforcement. Other exercises have involved the intelligence community, 
in order to plan and synchronize the fusion of intelligence, law 
enforcement and technical forensics information, leading to a more 
efficient and effective attribution process.
    Nuclear forensics capabilities for analysis of nuclear and other 
radioactive materials have steadily advanced. DNDO's efforts are 
focused on continually improving the accuracy, precision, and 
timeliness of material characterization information, and linking that 
information to the process and place of that material's origin. To 
date, DNDO has developed seven radiological and nuclear certified 
reference materials, which are forensically-relevant calibration 
standards used by the National laboratories to improve confidence in 
analytical conclusions. Additionally, DNDO has developed the first-ever 
laboratory-scale uranium processing capability that allows us to 
determine forensic signatures associated with specific variations in 
uranium manufacturing processes. This capability enables us to 
determine forensics signatures without having direct access to samples 
from foreign fuel cycles. We are now beginning development of a similar 
plutonium processing capability. Further, in cooperation with DOE and 
the Department of Defense, DNDO has developed and installed a nuclear 
forensics data evaluation capability at Sandia National Laboratories 
that enables forensic analysts to develop and test data analysis tools 
and evaluate large sets of data in order to identify distinguishing 
characteristics of specific nuclear materials. Together with the 
remainder of our portfolio, these projects are significantly improving 
the National ability to trace nuclear materials back to their source.
    DNDO's efforts to restore the expertise pipeline have also shown 
substantial success to date. The Congressionally-mandated National 
Nuclear Forensics Expertise Development program is a comprehensive 
effort to grow and sustain the scientific expertise required to execute 
the National technical nuclear forensics mission. Launched in 2008, 
this effort is a key component in assuring a robust and enduring 
nuclear forensics capability and its contribution to the Nation's 
efforts at preventing nuclear terrorism. In close partnership with 
eight National Laboratories, the program has provided support to more 
than 300 students and faculty and 23 universities. In 2008, DNDO 
commissioned an independent expert panel, the Nuclear Forensics Science 
Panel Education Sub-Panel, to examine the deficiencies in the nuclear 
forensics expertise pipeline and make recommendations to address them. 
We are steadily progressing toward the initial milestone, as 
established by the Science Panel's recommendation, of adding 35 new 
Ph.D. scientists into the nuclear forensics field by 2018 to replace 
anticipated attrition or retirements from the DOE National 
Laboratories. Nineteen new nuclear forensics scientists have come 
through the National Nuclear Forensics Expertise Development program 
and been hired since the program's inception.
                                closing
    While DNDO has made considerable progress since it was established 
in 2005, much remains to be done. It will be a challenge to remain one 
step ahead of the adversary--particularly one that is intelligent and 
adaptable. We must ensure our efforts are robust so that the obstacles 
terrorists face are many. DNDO's detection and forensics programs, in 
concert with those of our partners and stakeholders, are foundational 
elements in creating these impediments. Together, we can build upon 
DNDO's integrated approach to architecture planning, testing, and 
assessments, research and development, operational support, and nuclear 
forensics to strengthen the Nation's capabilities to detect and 
interdict the nuclear threat and to hold those responsible accountable 
for their actions. We remain committed to this challenge and we deeply 
appreciate this subcommittee's sustained interest and support in these 
shared goals to secure the homeland.
    Thank you again for this opportunity, I would be happy to answer 
any questions from the committee.

    Mr. Meehan. Thank you, Doctor.
    The Chairman now recognizes the gentleman from the GAO, Mr. 
Trimble.

STATEMENT OF DAVID C. TRIMBLE, DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Trimble. Chairman Meehan, Ranking Member Clarke, and 
Members of the committee--when they arrive--my testimony today 
discusses GAO's past work related to DNDO and provides 
preliminary observations from our on-going work for this 
subcommittee on management and coordination of research and 
development at DNDO.
    DNDO's mission is critical to the Nation's capability to 
deter a radiological or nuclear attack within the United 
States. DNDO carries out this mission by coordinating the 
Global Nuclear Detection Architecture, developing and deploying 
radiation detection technology along our borders, and funding 
research and development of radiation and nuclear detection 
technology.
    Since 2006, we have reported on progress and challenges in 
DNDO's efforts to develop plans for the GNDA and deploy 
radiation detection technology. We are pleased to report that 
DNDO has taken actions to respond to the majority of our 
recommendations in this area, including developing strategic 
and implementation plans for this effort.
    In 2012, we reported on how DHS coordinates research and 
development across the agency, including at DNDO. We found that 
DHS did not have a Department-wide policy defining R&D or 
guidance directing components on how to report R&D investments, 
making it difficult for DHS to track and coordinate these 
efforts to prevent unnecessary duplication.
    In 2013, we reviewed the extent to which DHS coordinates 
its border and maritime R&D efforts and found that work 
remained to be done to ensure these investments are directed 
towards the highest-priority needs.
    One of the significant findings from our past work on 
DNDO's efforts to acquire and deploy radiation detection 
equipment was inadequate communication. We specifically found 
that DNDO sought to acquire an advanced system for detecting 
nuclear materials without understanding that the system would 
not fit in the inspection lanes operated by CBP. DNDO cancelled 
the system and limited any further work to research and 
development. This history highlights the importance of 
effective coordination in the early research and development 
phases of a system.
    Our on-going work for this subcommittee examines management 
and coordination issues within the research directorate at 
DNDO. DNDO established this directorate, known as TAR, to 
identify, explore, and develop scientific and technological 
approaches that address gaps in the GNDA, improve the 
performance of existing detectors, and increase the efficiency 
of detection technology for the end-users who will operate it.
    Regarding the TAR Directorate's efforts to manage R&D 
investments, our preliminary observations are that DNDO has 
taken steps to manage R&D and assess project outcomes, but the 
directorate may not be able to demonstrate how agency 
investments align with critical mission needs.
    Critical mission needs are identified based on an analysis 
of gaps in the GNDA. However, TAR Directorate officials say 
they do not have systematic approach for evaluating its overall 
R&D program against the gaps in the GNDA. TAR Directorate 
officials told us they understand how projects are intended to 
make progress on those gaps but acknowledge that the only 
documentation on this linkage are large technical project 
deliverables.
    As a result, the TAR Directorate may not be able to 
demonstrate to key stakeholders, including oversight 
organizations and potential users of new technologies, that its 
R&D investments are aligned with critical mission needs.
    Regarding the TAR Directorate's efforts to coordinate R&D, 
our preliminary analysis shows that not all of DNDO's end-users 
are satisfied with the TAR Directorate's level of 
communications. In essence, the TAR Directorate communicates 
with end-users through a middle man. Specifically, staff in 
DNDO's planning directorate, not the TAR Directorate, 
communicate with end-users and then convey these user needs 
back to the TAR Directorate.
    Officials at CBP, a key end-user, told us they would prefer 
direct communications so they can assure their operational 
needs and constraints are fully understood during the critical 
planning stages. Past communication breakdowns between DNDO and 
CBP highlight the importance of improving this communication 
channel.
    We are continuing our audit work looking at R&D and the TAR 
Directorate and plan to issue our final report in December.
    In summary, DNDO was established to help protect the Nation 
from the threat and terrible consequences of a nuclear or 
radiological attack. Improving communication between DNDO and 
end-users is essential to maximize the chance that its R&D 
projects will improve the effectiveness of our detection 
capabilities at the border. Similarly, clearly tracking and 
documenting how R&D investments address critical gaps in the 
GNDA will help DNDO demonstrate the benefits of these 
investments.
    Thank you. I would be happy to answer any questions you may 
have.
    [The prepared statement of Mr. Trimble follows:]
                 Prepared Statement of David C. Trimble
                             July 29, 2014
                             gao highlights
    Highlights of GAO-14-783T, a testimony before the Subcommittee on 
Cybersecurity, Infrastructure Protection, and Security Technologies, 
Committee on Homeland Security, House of Representatives.
Why GAO Did This Study
    Preventing terrorists from using nuclear or radiological material 
to carry out an attack in the United States is a top National priority. 
Within DHS, DNDO's mission is to: (1) Improve capabilities to deter, 
detect, respond to, and attribute attacks, in coordination with 
domestic and international partners, and (2) conduct R&D on radiation 
and nuclear detection devices. GAO has reported on progress and 
challenges in DNDO's efforts since 2006 and is currently reviewing 
DNDO's planning and prioritization of its R&D investments.
    This testimony discusses GAO's past work on DNDO's efforts to 
develop the GNDA and deploy radiation detection equipment and DHS's 
efforts to coordinate R&D across the agency, as well as preliminary 
observations from GAO's on-going review of DNDO's research 
directorate's efforts to: (1) Manage its R&D investments to align with 
critical mission needs and (2) coordinate its R&D efforts internally, 
with other Federal research agencies, and with end-users of the 
technology it develops.
    To conduct its on-going review, GAO analyzed DHS documents and data 
related to how DNDO plans and prioritizes its R&D program, and 
interviewed officials on coordinating R&D.
What GAO Recommends
    GAO is not making any new recommendations in this statement. As GAO 
continues to complete its on-going work, it will consider the need for 
any new recommendations as appropriate. DHS provided technical 
comments, which were incorporated as appropriate.
combating nuclear smuggling.--past work and preliminary observations on 
   research and development at the domestic nuclear detection office
What GAO Found
    GAO has reported on the Department of Homeland Security's (DHS) 
Domestic Nuclear Detection Office (DNDO) since 2006. GAO has identified 
challenges and made recommendations in the following areas:
  <bullet> DNDO's efforts to develop the Global Nuclear Detection 
        Architecture (GNDA).--In 2008, GAO recommended that DHS develop 
        a strategic plan to guide the development of the GNDA, a 
        framework for 74 independent programs, projects, or activities 
        to detect and interdict nuclear smuggling. In 2010, DHS issued 
        a plan and GAO reviewed this plan and found that it generally 
        addressed GAO's recommendations.
  <bullet> DNDO's efforts to replace radiation detection equipment.--
        GAO has found challenges in DNDO's efforts to develop and 
        deploy radiation portal monitors, which scan for nuclear or 
        radiological materials at ports of entry. GAO has made several 
        recommendations throughout the history of these efforts, and 
        DNDO has taken actions that have generally been responsive.
  <bullet> DHS's efforts to coordinate research and development (R&D) 
        across the agency.--In 2012 and 2013, GAO made recommendations 
        to help DHS oversee its R&D investments and efforts, and in 
        particular its border and maritime R&D efforts. GAO's 
        recommendations focused on strengthening coordination and 
        defining R&D across the agency. DHS concurred with GAO's 
        recommendations and described actions it plans to take in 
        response.
    Preliminary observations from GAO's on-going review are that DNDO 
has taken steps to manage R&D and assess project outcomes, but that it 
may not be able to demonstrate how agency investments align with 
critical mission needs. DNDO officials told GAO that they discuss how 
research projects may contribute to critical mission needs but that 
they do not document these discussions. Once research projects are 
complete, DNDO officials told GAO they evaluate the success of 
individual research projects, but DNDO does not have a systematic 
approach to ensure its overall R&D investments address gaps in the 
GNDA. As a result, DNDO may not be able to demonstrate to key 
stakeholders--including oversight organizations and potential users of 
new technologies--that its R&D investments are aligned with critical 
mission needs.
    GAO's on-going work indicates that DNDO officials have taken some 
steps to coordinate R&D efforts internally, with other Federal 
agencies, and with end-users, but preliminary analysis shows that not 
all of DNDO's end-users are satisfied with DNDO's communication. DNDO 
directorates work closely to identify critical mission needs, and DNDO 
collaborates with other Federal research agencies to leverage 
expertise. However, DNDO's end-users varied in their satisfaction with 
DNDO's efforts to coordinate with them. Officials from two end-user 
agencies told GAO that coordination was working well; however, 
officials from the largest end-user agency stated that they were 
generally dissatisfied with DNDO's coordination because DNDO's research 
directorate does not provide them information directly and, in some 
cases, found that project requirements would not meet the agency's 
operational needs. This is consistent with GAO's 2010 finding that 
inadequate communication caused DNDO to pursue scanning technology that 
would not meet the operational requirements of the end-user if it were 
deployed.
    Chairman Meehan, Ranking Member Clarke, and Members of the 
subcommittee: I am pleased to be here today to discuss our past work on 
the Department of Homeland Security's (DHS) Domestic Nuclear Detection 
Office (DNDO) and our preliminary observations on DNDO's management and 
coordination of its research and development (R&D) investments as you 
consider the reauthorization of DNDO. Preventing terrorists from using 
nuclear or radiological material to carry out an attack in the United 
States is a top National priority. Terrorists could use these materials 
to make an improvised nuclear device or a radiological dispersal device 
(also called a ``dirty bomb''). The detonation of a nuclear device in 
an urban setting could cause hundreds of thousands of deaths and 
devastate buildings and physical infrastructure for miles. While not as 
damaging, a radiological dispersal device could nonetheless cause 
hundreds of millions of dollars in socioeconomic costs as a large part 
of a city would have to be evacuated--and possibly remain 
inaccessible--until an extensive radiological decontamination effort 
was completed. A key element of the strategy for protecting the 
homeland from the consequences of nuclear or radiological terrorism is 
the Global Nuclear Detection Architecture (GNDA), a multi-layered 
framework encompassing 74 independent programs, projects, or activities 
by the Federal Government and its partners to detect and interdict 
nuclear smuggling in foreign countries, at the U.S. border, and inside 
the United States.\1\
---------------------------------------------------------------------------
    \1\ U.S. Government partners include State, Tribal, and local 
governments, the private sector, and international partners.
---------------------------------------------------------------------------
    Within DHS, DNDO is responsible for improving the Nation's 
capabilities to deter, detect, respond to, and attribute attacks, in 
coordination with domestic and international partners.\2\ To accomplish 
this, DNDO is organized into directorates that support elements of its 
mission. Three of these directorates are relevant to my testimony 
today: (1) The Architecture and Plans Directorate, which analyzes gaps 
in the GNDA and develops strategies and plans for the GNDA in 
coordination with its partners; (2) the Product Acquisition and 
Deployment (Acquisition) Directorate, which is responsible for 
developing, acquiring, and deploying radiation detection equipment to 
support the efforts of Federal, State, and local agencies that use 
radiation detection equipment to carry out their mission; and (3) the 
Transformational and Applied Research (TAR) Directorate, which conducts 
R&D of radiation and nuclear detection devices and furthers the 
development of technologies to support the domestic component of the 
GNDA. DNDO established the TAR Directorate in 2006 to identify, 
explore, develop, and demonstrate scientific and technological 
approaches that meet one or more of the following criteria: Address 
gaps in the GNDA; improve the performance of domestic radiological and 
nuclear detection systems and enabling technologies; or increase the 
operational efficiency of detection technology for domestic end-users: 
primarily DHS' Customs and Border Protection (CBP), but also Coast 
Guard, Transportation Security Administration (TSA), and State and 
local law enforcement. DNDO's TAR Directorate makes R&D investments 
based on competitive awards to researchers in Government laboratories, 
academia, and private industry for basic and applied R&D efforts. From 
fiscal year 2008 through fiscal year 2013, the TAR Directorate 
obligated approximately $328 million for about 205 projects focused on 
basic research, technology prototypes, software development, and 
computer modeling for the detection of radioactive and nuclear 
materials, among other things. The TAR Directorate's total budget, 
including R&D, for fiscal year 2014 was $71.1 million.
---------------------------------------------------------------------------
    \2\ DNDO was established in 2005 by National Security Presidential 
Directive (NSPD)-43/Homeland Security Presidential Directive (HSPD)-14 
and codified in statute by the Security and Accountability for Every 
Port Act of 2006 (SAFE Port) Act, Pub. L. No. 109-347  501, 120 Stat. 
1884, 1932 (codified as amended at 6 U.S.C.  591).
---------------------------------------------------------------------------
    My testimony today is based on reports we issued from March 2006 to 
September 2013, as well as preliminary observations from our on-going 
review for this subcommittee of the TAR Directorate's efforts to plan, 
prioritize, and assess outcomes of its R&D program. Specifically, my 
statement today discusses our past work on DNDO's efforts to develop 
the GNDA and deploy radiation detection equipment and DHS's efforts to 
coordinate R&D across the agency, as well as preliminary observations 
from our on-going review of the TAR Directorate's efforts to: (1) 
Manage its R&D investments to align with critical mission needs, and 
(2) coordinate its R&D efforts internally, with other Federal research 
agencies, and with the end-users of the technology it develops.
    Detailed information on our scope and methodology for our prior 
work can be found in the reports cited throughout this statement. To 
develop our preliminary observations on the TAR Directorate's efforts 
to manage and coordinate its R&D investments, we reviewed agency 
documents that identify critical mission needs for R&D and the TAR 
Directorate's process for planning and prioritizing R&D investments. We 
also obtained data from the TAR Directorate's project database that 
contained information on all on-going and completed research projects 
funded from fiscal year 2008 through 2013, which we used to determine 
the total number of TAR Directorate research projects and obligations 
allocated during this period. To assess the reliability of the data, we 
interviewed the TAR Directorate officials responsible for maintaining 
the database and determined the data were reliable for providing 
background information on the TAR Directorate's projects. Our review 
does not include the TAR Directorate's nuclear forensics portfolio 
because projects in that portfolio are not selected using the same 
planning and prioritization process as projects in the TAR 
Directorate's other research areas. We interviewed the assistant 
directors of the TAR Directorate, the Architecture and Plans 
Directorate, and the Acquisition Directorate. We also interviewed the 
TAR Directorate's research managers on the TAR Directorate's process 
for identifying critical mission needs, selecting research topics and 
projects, managing and evaluating research areas, coordinating R&D, and 
aligning R&D investments with critical mission needs. We also 
interviewed officials at Federal agencies with a R&D component and 
potential end-users of technology developed under DNDO's R&D program to 
understand how DNDO coordinates the planning of R&D. Specifically, we 
interviewed officials at the Department of Defense's (DOD) Defense 
Threat Reduction Agency and the Department of Energy's (DOE) National 
Nuclear Security Administration (NNSA) and end-users at DHS' CBP, the 
Coast Guard, and TSA to understand their involvement in DNDO's R&D 
planning, prioritization, and evaluation process. We shared the 
information on our preliminary findings with officials from DNDO, CBP, 
Coast Guard, TSA, the Defense Threat Reduction Agency, and NNSA. DNDO 
and the Defense Threat Reduction Agency officials provided technical 
comments, which we incorporated, as appropriate. We expect to issue a 
final report on this work in December 2014.
    The work upon which this testimony is based was conducted in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
   dndo's efforts to develop the gnda and deploy radiation detection 
             equipment, and dhs's efforts to coordinate r&d
    We have reported on progress and challenges in DNDO's efforts to 
develop the GNDA and deploy radiation detection equipment since 2006 
and have recently reported on DHS's efforts to coordinate R&D across 
the agency.\3\
---------------------------------------------------------------------------
    \3\ See, for example GAO, Combating Nuclear Smuggling: DHS Has Made 
Progress Deploying Radiation Detection Equipment at U.S. Ports-of-
Entry, but Concerns Remain, GAO-06-389 (Washington, DC: Mar. 22, 2006); 
Nuclear Detection: Preliminary Observations on the Domestic Nuclear 
Detection Office's Efforts to Develop a Global Nuclear Detection 
Architecture, GAO-08-999T (Washington, DC: July 16, 2008); and 
Department of Homeland Security: Oversight and Coordination of Research 
and Development Should Be Strengthened, GAO-12-837 (Washington, DC: 
Sept. 12, 2012).
---------------------------------------------------------------------------
    Regarding DNDO's efforts to develop the GNDA, in July 2008,\4\ when 
DNDO was in the early stages of this work, we found that DNDO, in 
collaboration with other Federal agencies, had made progress by 
identifying critical gaps in domestic efforts to prevent and detect 
radiological and nuclear smuggling but had not clearly articulated a 
long-term plan for expanding radiological and nuclear detection 
capabilities to close those gaps. As a result, we recommended that DHS 
develop a strategic plan to guide the development of the GDNA and, in 
January 2009, further recommended that DHS develop a strategic plan for 
the domestic part of the global nuclear detection strategy.\5\ DHS has 
taken actions on these recommendations by issuing an interagency GNDA 
strategic plan in December 2010 and an implementation plan about 1 year 
later.\6\ In July 2011 and July 2012, when we reviewed these actions, 
we found that they generally addressed our recommendations.\7\ However, 
in July 2012, we testified that it remained difficult to identify 
priorities among the components of the domestic part of the GNDA.
---------------------------------------------------------------------------
    \4\ GAO-08-999T.
    \5\ GAO, Nuclear Detection: Domestic Nuclear Detection Office 
Should Improve Planning to Better Address Gaps and Vulnerabilities, 
GAO-09-257 (Washington, DC: Jan. 29, 2009).
    \6\ The GNDA strategic plan was an interagency effort jointly 
developed by the Departments of Homeland Security, Energy, Defense, 
Justice, and State; the intelligence community; and the Nuclear 
Regulatory Commission.
    \7\ GAO, Combating Nuclear Smuggling: DHS has Developed a Strategic 
Plan for its Global Nuclear Detection Architecture, but Gaps Remain, 
GAO-11-869T (Washington, DC: July 26, 2011) and Combating Nuclear 
Smuggling: DHS has Developed Plans for Its Global Nuclear Detection 
Architecture, but Challenges Remain in Deploying Equipment, GAO-12-941T 
(Washington, DC: July 26, 2012).
---------------------------------------------------------------------------
    Regarding DNDO's efforts to deploy radiation detection equipment, 
our past work has found challenges in DNDO's efforts to develop and 
deploy radiation portal monitors, which scan for nuclear or 
radiological materials at ports of entry, at U.S. border crossings, and 
seaports.\8\ As we reported in July 2012, deployed portal monitors are 
reaching the end of their expected service lives, and DNDO, with input 
from CBP, will need to make decisions about whether to refurbish or 
replace them.\9\ We have reported, since March 2006, on programs to 
replace existing portal monitors with more advanced versions and have 
made several recommendations concerning these efforts, most of which 
DNDO has implemented.\10\ In September 2010, we found that inadequate 
communication between DNDO and CBP contributed to DNDO pursuing the 
deployment of a system to use radiography to scan cargo for nuclear 
materials without fully understanding that it would not fit within 
existing inspection lanes at ports of entry and would slow down the 
flow of commerce through these lanes, causing significant delays.\11\ 
At that time, DNDO and CBP officials said they were communicating much 
more routinely and that, in their view, it would be unlikely that the 
communication problems we identified would reoccur. DNDO decided to 
cancel the acquisition of the system and limit any further work on 
demonstrating the potential capability of the technology to research 
and development efforts, highlighting the importance of effective 
coordination even in the R&D phases of a system.
---------------------------------------------------------------------------
    \8\ See, for example, GAO, Combating Nuclear Smuggling: Additional 
Actions Needed to Ensure Adequate Testing of Next Generation Radiation 
Detection Equipment, GAO-07-1247T (Washington, DC: Sept. 18, 2007); 
Combating Nuclear Smuggling: DHS Improved Testing of Advanced Radiation 
Detection Portal Monitors, but Preliminary Results Show Limits of the 
New Technology, GAO-09-655 (Washington, DC: May 29, 2009); and 
Combating Nuclear Smuggling: Recent Testing Raises Issues About the 
Potential Effectiveness of Advanced Radiation Detection Portal 
Monitors, GAO-10-252T (Washington, DC: Nov. 17, 2010).
    \9\ GAO-12-941T.
    \10\ GAO-06-389.
    \11\ GAO, Combating Nuclear Smuggling: Inadequate Communication and 
Oversight Hampered DHS Efforts to Develop an Advanced Radiography 
System to Detect Nuclear Materials. GAO-10-1041T (Washington, DC: Sept. 
15, 2010).
---------------------------------------------------------------------------
    Regarding DHS's efforts to coordinate across its components that 
conduct R&D, in September 2013 we reviewed the extent to which DHS and 
its components, including DNDO, coordinated border and maritime R&D 
efforts within DHS and among other Federal agencies.\12\ We found that 
DNDO has mechanisms for coordinating its R&D efforts that vary 
depending on the maturity of the technology. Specifically, the TAR 
Directorate did not always interact directly with DHS' operational 
components because it worked with less mature technologies. We also 
found, among other things, that DHS had taken actions to develop 
Departmental policies to better define and coordinate R&D but that work 
remained to be done at the agency level to ensure border and maritime 
R&D efforts are mutually reinforcing and are being directed toward the 
highest-priority needs. We made recommendations to help ensure that DHS 
effectively manages and coordinates its border and maritime R&D 
efforts. DHS concurred with our recommendations and described actions 
it plans to take in response. In September 2012, we reviewed the 
management and coordination of R&D at DHS among the Science and 
Technology Directorate, Coast Guard, DNDO, and other components and 
found that DHS did not have a Department-wide policy defining R&D or 
guidance directing components how to report R&D activities and 
investments.\13\ We made recommendations to help ensure that DHS 
effectively oversees its R&D investments and efforts and reduces 
fragmentation, overlap, and the risk of unnecessary duplication. As of 
July 2014, DHS had taken some steps to address two of our 
recommendations, including establishing a definition of R&D and 
guidance for coordinating R&D across the agency. However, work remains 
to be done to address our remaining recommendation to create a 
mechanism to track existing R&D projects and their associated costs 
across the Department.
---------------------------------------------------------------------------
    \12\ GAO, Department of Homeland Security: Opportunities Exist to 
Better Evaluate and Coordinate Border and Maritime Research and 
Development, GAO-13-732 (Washington, DC: Sept. 25, 2013).
    \13\ GAO-12-837.
---------------------------------------------------------------------------
   the tar directorate's r&d investments may not align with critical 
                             mission needs
    Our preliminary observations from our on-going analysis are that 
DNDO's R&D component, the TAR Directorate, has taken steps to manage 
R&D and to assess project outcomes, but it may not be able to 
demonstrate how its R&D investments align with critical mission needs. 
Each year, the DNDO Architecture and Planning Directorate identifies 
critical mission needs based on an analysis of gaps in the GNDA and 
provides this information to the TAR Directorate. According to TAR 
Directorate officials, research managers within the directorate 
consider these needs to identify the topics for that year's competitive 
awards for new basic and applied research. After they select which 
research projects to fund, TAR Directorate officials write contracting 
documents that guide the goals and milestones of the projects and 
regularly review the progress of their on-going research projects. 
According to TAR Directorate officials, they: (1) Consider the 
potential for the research to contribute to resolving gaps in the GNDA 
at each step of planning and selecting research projects, and (2) 
discuss this potential with officials from the other DNDO directorates, 
the Defense Threat Reduction Agency, and NNSA, but they do not document 
these discussions. Once research projects are completed, TAR 
Directorate officials told us they take steps to evaluate the outcomes 
of individual research projects by, for example, requiring researchers 
to complete deliverables that describe how the research performed 
compared with the initial goals for the project that were outlined in 
the contract.\14\
---------------------------------------------------------------------------
    \14\ Our review of the TAR Directorate's R&D projects from fiscal 
year 2008 through fiscal year 2013 showed that examples of outcomes for 
completed projects included transferring resulting technology to 
private industry for commercialization, transitioning knowledge gained 
to a new TAR Directorate-funded R&D project for further development, or 
determining that the technology was not feasible.
---------------------------------------------------------------------------
    However, our preliminary observations are that the TAR Directorate 
has limited information to demonstrate how its R&D investments align 
with critical mission needs. TAR Directorate officials stated that they 
understand how projects are intended to make progress on gaps in the 
GNDA based on the information contained in the contract deliverables of 
individual projects but acknowledged that it would be difficult for 
non-scientists who are not fully involved in a project to understand 
how projects address these gaps based on this information alone. 
Further, TAR Directorate officials stated that the directorate does not 
have a systematic approach for evaluating its overall R&D program or a 
mechanism for: (1) Tracking the longer-term outcomes of individual 
projects, and (2) measuring how those outcomes may contribute to 
addressing gaps in the GNDA. TAR Directorate officials told us that the 
scientific community is small enough that they are usually able to 
continue to follow their funded research after a project ends. TAR 
Directorate officials also told us they have made efforts to 
disseminate the results of individual projects by posting articles on 
DHS's website and discussing successes at conferences. With limited 
information on how R&D investments are intended to make progress on 
gaps in the GNDA, and without a process for assessing and reporting on 
the results of its R&D program as a whole against those gaps, the TAR 
Directorate may not be able to demonstrate to key stakeholders--
including oversight organizations and potential users of new 
technologies--that its R&D investments are aligned with critical 
mission needs. We plan to continue our audit work on this issue and 
will present our findings in more detail in our final report, with any 
related suggestions for improvement, which we expect to issue in 
December 2014.
the tar directorate has taken steps to coordinate its r&d but may face 
              communication challenges with some end-users
    Our preliminary observations from our on-going analysis are that 
the TAR Directorate has taken steps to coordinate its R&D efforts 
internally, with other Federal research agencies, and with end-users of 
the technologies it develops, but the TAR Directorate may face 
communication challenges with one of its key end-users. As the TAR 
Directorate plans and manages its R&D investments, agency officials we 
interviewed stated that TAR Directorate officials take steps to 
coordinate within DNDO, across agencies with similar missions, and with 
potential end-users of resulting technology as follows:
  <bullet> Within DNDO.--Our preliminary observation is that TAR 
        Directorate officials work closely with officials from DNDO's 
        Architecture and Plans Directorate and the Acquisition 
        Directorate to identify critical mission needs based on gaps in 
        the GNDA. For example, according to interviews with officials 
        from all three DNDO directorates, officials from the three 
        directorates participate in and provide feedback to the TAR 
        Directorate during individual project reviews at key milestones 
        and at annual research reviews. In addition, the three 
        directorates coordinate an annual DNDO Industry, Academia, and 
        Lab Engagement Day, formerly known as ``industry days'' where 
        officials from all three directorates discuss ways to enhance 
        existing radiation detection devices and develop new 
        technologies with members of industry, academia, DOE National 
        laboratories, and others. According to DNDO documents, TAR 
        Directorate officials also share data and results from R&D 
        efforts to inform the acquisition decisions made by the 
        Architecture and Plans Directorate and the Acquisition 
        Directorate. Officials from DNDO's Architecture and Plans 
        Directorate and Acquisition Directorate told us that their 
        level of involvement with TAR Directorate officials is 
        effective and provides them with a common understanding of how 
        DNDO's R&D investments are aligned with critical mission needs.
  <bullet> Across agencies with similar research missions.--Our 
        preliminary observation from our on-going review is that the 
        TAR Directorate coordinates regularly with the Defense Threat 
        Reduction Agency and NNSA on both a program and individual 
        project level. According to officials from the TAR Directorate, 
        the Defense Threat Reduction Agency, and from NNSA, this 
        coordination is intended to leverage expertise and decrease the 
        opportunity for duplication of research efforts while each 
        agency invests in areas to meet its mission needs. For example, 
        these officials told us that representatives from these 
        agencies meet regularly to discuss their R&D goals, on-going 
        projects, and topics for soliciting new research.\15\ The 
        officials said that the representatives also participate in 
        each other's proposal review processes, as well as project 
        review meetings once funded projects meet key milestones. 
        Officials from the Defense Threat Reduction Agency and from 
        NNSA told us that collaboration with the TAR Directorate works 
        well and keeps them informed about the status and results of 
        relevant research. We plan to continue our audit work on this 
        issue and will present our findings in more detail in our final 
        report, which we expect to issue in December 2014. We reported 
        in June 2014 on collaboration between the Architecture and 
        Plans Directorate and NNSA on an effort to research, develop, 
        and test a new technology for a radiological tracking device 
        and found that although the agencies had been meeting 
        quarterly, this mechanism did not always help them collaborate 
        and draw on each agency's expertise.\16\
---------------------------------------------------------------------------
    \15\ DNDO has a memorandum of understanding with DOD's Defense 
Threat Reduction Agency, DOE's NNSA, and the Office of the Director of 
National Intelligence to coordinate National nuclear detection R&D 
programs, which, according to officials from all three agencies, guides 
these efforts.
    \16\ See GAO, Nuclear Nonproliferation: Additional Actions Needed 
to Increase the Security of U.S. Industrial Radiological Sources, GAO-
14-293 (Washington, DC: June 6, 2014). According to TAR Directorate 
officials, the effort to research, develop, and test a radiological 
tracking device was not a project within the TAR Directorate.
---------------------------------------------------------------------------
  <bullet> With potential end-users.--Our preliminary observation is 
        that the TAR Directorate has an indirect mechanism for 
        coordinating with potential end-users of the technology that 
        the directorate develops during the planning phases of research 
        projects. TAR Directorate officials told us that, rather than 
        communicate directly with end-users, staff in the Architecture 
        and Plans Directorate discuss technology requirements and 
        operational needs with end-users as part of the Architecture 
        and Plans Directorate's work coordinating the GNDA, and these 
        staff relay the information back to the TAR Directorate. Once a 
        project starts, TAR Directorate officials told us they meet 
        directly with end-users by inviting end-users to project review 
        meetings at key milestones, such as technology demonstrations.
    In the course of our on-going work, however, we found that end-
        users' satisfaction with this level of coordination with the 
        TAR Directorate varied. For example, officials from TSA told us 
        that they are generally satisfied with this relationship 
        because they are most interested in acquiring available 
        radiation detection equipment and do not have the technical 
        expertise to engage directly with the TAR Directorate's 
        research efforts. In addition, officials from the Coast Guard 
        told us their indirect relationship with the TAR Directorate 
        works well because it is based on a defined strategy that 
        outlines the Coast Guard's short-term and long-term technology 
        requirements, and the Coast Guard currently has three detailees 
        working at DNDO who are able to communicate the unique needs of 
        the Coast Guard. However, officials from CBP, which is DHS's 
        largest end-user of radiation detection technologies, told us 
        they are generally dissatisfied with the level of interaction 
        with TAR. Specifically, CBP officials stated that they 
        typically do not learn about the TAR Directorate's projects 
        until after the project requirements are written and research 
        contracts are issued and, in some cases, has found that project 
        requirements would not meet CBP's operational needs if the 
        technology were deployed at ports of entry. CBP officials told 
        us they would prefer to work directly with TAR Directorate 
        officials at all stages of the research process to gain a 
        better understanding of the TAR Directorate's research goals 
        and to help ensure that its R&D projects align with CBP's 
        operational needs.
    As noted above, in September 2010, we found that poor communication 
with CBP hampered DNDO's ability to develop an advanced system for 
detecting nuclear materials.\17\ In May 2013, we also found that DNDO's 
analysis of lessons learned that it conducted after it canceled an 
advanced portal monitor program stated that effective outreach, 
communication, and buy-in from the end-user are critical to successful 
acquisitions.\18\ We plan to continue our audit work on this and other 
issues and will present our findings in more detail and any related 
suggestions for improvements in our final report, which we expect to 
issue in December 2014.
---------------------------------------------------------------------------
    \17\ GAO-10-1041T.
    \18\ GAO, Combating Nuclear Smuggling: Lessons Learned from 
Cancelled Radiation Portal Monitor Program Could Help Future 
Acquisition, GAO-13-256 (Washington, DC: May 13, 2013).
---------------------------------------------------------------------------
    Chairman Meehan, Ranking Member Clarke, and Members of the 
subcommittee, this completes my prepared statement. I would be pleased 
to respond to questions that you may have at this time.

    Mr. Meehan. I want to thank the panelists for their 
testimony, and I now recognize myself for 5 minutes of 
questions.
    Before I get into some more generalized questions, Dr. 
Gowadia, could you just take a minute and explain the 
difference in your mind between what is forensics and what is 
detection?
    Ms. Gowadia. Certainly, Chairman Meehan.
    Detection is, in our parlance, the ability to know that 
there is nuclear material present. For technical detection, we 
use this by way of detectors. If you were to use detection writ 
large, you would say the intelligence community's information 
would come to bear, law enforcement would come to bear, et 
cetera. But for nuclear detection, when you say nuclear 
detection, we literally mean detection by way of instruments to 
sense the presence of radioactive material.
    Forensics, on the other hand, is the ability for us to 
trace back the material interdicted, or, God forbid, the 
material detonated, to its origins. So, again, you will hear us 
talk about the coupling with intelligence and law enforcement 
to be able to attribute a material to its origin.
    Does that help?
    Mr. Meehan. No, it certainly does, because it could be 
relevant. You might only have part of a cache of something, and 
you would then be able to identify where we would be looking 
for other materials that are of concern. Well, I am grateful 
for that explanation.
    I opened my commentary talking about events in the world. 
You know, we are watching not just what had been a history of 
state-sponsored activity in the nuclear era, we have grown up 
in the world of assured mutual deterrence in which you have 
major players who have been responsibly balancing each other's 
presence in some way and we have avoided any kind of a nuclear 
incident, you know, since the wars.
    We are watching other countries develop capacities, 
including some who currently have them who you worry about 
whether they become destabilized. But, more recently, just the 
potential that there are, as I have said, other kinds of both 
interests on the part of Iran and others to develop nuclear 
capability as well as nuclear materials, even hospital-grade, 
but being available to groups that want to do--that aren't 
necessarily tied directly to nation-states but are terrorist 
organizations and otherwise who want to do harm or to use those 
things to leverage their ends.
    So we are in a dynamic and complex threat environment, and 
more than we have ever faced as a Nation. The conditions 
indicate there is a critical need to bolster homeland security 
against a threat of terrorism that can be colluded, and we can 
include this as one of our top priorities.
    So, from your perspective, what actions should DNDO take to 
bolster the capability to deter and protect against such an 
attack? In particular, what should DNDO's role be in that 
regard?
    Ms. Gowadia. Chairman Meehan, you are absolutely right, we 
are in a dynamic and complex threat environment. Considering 
the dire consequences of this threat, as you clearly pointed 
out at the start, we certainly have to be vigilant, remain 
vigilant, and agile and flexible in our response. So, working 
with the interagency, we need to continue to plan to be ready 
for the heightened threat and, again, be ready should the 
threat be elevated and we get some more credibility and 
specificity to be agile and responsive.
    As the lead Federal agency for coordinating the efforts for 
the United States Government, our role is predominantly in 
bringing the community together, setting and shaping the 
strategy, and making sure that we are operationally ready to 
respond. Of course, you have entrusted us with precious 
resources, and we would like to apply them--we will continue to 
apply them so that we can realize the maximum risk reduction.
    Mr. Meehan. But how do you mean, sort-of, operationally 
ready to respond? Because, in reality, we are looking at what 
is always a threat. The idea of once something has been 
detected and it is here, if you haven't interdicted it in a 
certain way prior to its capacity to be operational, then we 
are already at sort of a too-late point.
    So how do we operate in such a way that, you know, the 
principal objective is to assure that we don't get to the step 
where we are worried about it being situated and active here in 
our own homeland?
    Ms. Gowadia. So there are two pieces to this. The first is 
our strategy, ensuring that we have critical ties to our 
intelligence community so that we can conduct intelligence-cued 
searches. Ensuring that our law enforcement partners are well-
trained, well-equipped, that is the second piece. Then, of 
course, there is the technology element, making sure that we 
have the right technologies so that our law enforcement 
operators can react when the intelligence cue comes about.
    To do this, of course, we must train and exercise 
constantly. A lot of us hope that in our lifetimes we will 
never actually have to see this for real. So, to do that, we 
practice constantly, very remarkably realistic exercises--
Federal, State, local, even international partners. We make it 
so that we are not just exercising the decision-making process 
but also all the way down to boots on the ground against 
realistic materials with our red team, realistic materials and 
interesting configurations, challenging our operators to make 
that be the case. So that is one piece of it.
    I would like to pull the string a little bit on your notion 
of deterrence for a moment. In the classical sense, nation-
states deterrence, we look at it a little differently. Because 
you would question, how does one deter an enemy who values your 
death more than their life?
    So, for us, there are two pieces of it. Certainly, the 
forensics element adds a notion of deterrence. If you aid and 
abet a terrorist, we have the means to trace back to the 
origin. Then, not so classically, deterrence by denial. Here I 
will steal something from Mr. Trimble's colleague, Mr. Maurer, 
at the GAO, who often says, for detection technology right here 
at our borders to come into play, we have to have had law 
enforcement intelligence failures, treaty failures, our 
partners have had to fail, everything before we get--the 
security regimes for the material have had to fail, 
nonproliferation regimes have had to fail, and now we are at 
our borders with technology.
    So it is so important that we build an architecture that is 
multifaceted, multi-layered, so that the adversary has to be 
right every time they encounter any one of these layers, 
increasing our chances of success and, thus, deterrence by 
denial.
    Mr. Meehan. Well, I thank you.
    I will turn to the Ranking Member for her questions, but, 
obviously, we will have the opportunity to go back and forth, 
and I have some other issues I will follow up with you on.
    So, at this point I time, I turn it to the Ranking Member, 
the gentlelady from New York.
    Ms. Clarke. I thank you, Mr. Chairman.
    I thank both of you for your testimony here this afternoon.
    I would like to turn to the issue of procurement, because 
that always tends to be the issue. Last month, DNDO issued a 
request for proposal for its Human Portable Tripwire Program. 
As I understand it, these are essentially personal radiation 
detectors, PRDs, that can also identify the source of 
radiation. These devices are intended for use by CBP and the 
Coast Guard. The cost of these devices are going to be $24 
million for 26 devices.
    I have several questions about this. Let me start with this 
one: Why are these costs so high? Over $900,000 a piece for 
something that is worn on an officer's belt. No. 2, do you 
expect costs to go down for future acquisitions?
    No. 3, why are these devices needed? No. 4, in what type of 
operational environments will these be used? No. 5, why can't 
traditional PRDs be used in these environments instead?
    That is directed to Dr. Gowadia.
    Ms. Gowadia. Thank you, Ranking Member Clarke.
    So there is some slight confusion with the announcement. 
The systems will not cost nearly a million dollars apiece. The 
ceiling on the contract is $24 million, and our minimum buy is 
26. It is not appropriate to divide 24 by 26; that would be 
incorrect.
    We are expecting these devices to cost no more than 
$10,000. Since it is an active procurement, it would not be 
appropriate for me to share the Government cost estimate, but 
we are expecting much lower than $10,000, depending on the 
capabilities afforded.
    Does that give you some pause?
    Ms. Clarke. It does. It does.
    Ms. Gowadia. So, now to your other questions as to the 
environment and why we need them.
    Ms. Clarke. Uh-huh.
    Ms. Gowadia. These are for our Customs and Border 
Protection Officers and Coast Guard Officers, as you mentioned. 
Typically, what happens in DHS operations is you have your 
pager, your personal radiation detection system, and all it 
does is detect radiation. Now you need to follow it up with a 
device that will allow you to distinguish benign from threat, 
the identification device.
    Think of our Border Patrol Officers who are sometimes very 
far removed from the nearest identification device. So it would 
be so much more efficient and convenient in their daily 
operations to have both capabilities built into one. That is 
what these systems were designed to--detect, identify, and 
store for archival and retrieval purposes that information on 
board that system.
    So, yes, it would significantly improve our capabilities on 
the border, improve the efficiency of our operations, and, I 
think, alleviate some of the operational burden for our staff.
    Ms. Clarke. Very well. Are you confident that the 
technologies to, sort-of, have that 3-in-1 capability already 
exist?
    Ms. Gowadia. So we have looked at through a lot of our 
testing certain spectroscopic pagers, particularly in the 
testing we did with our European Commission partners overseas 
in the ITRAP+10 test series. We will use those data to make our 
assessments.
    Again, since this is an active and open----
    Ms. Clarke. Right.
    Ms. Gowadia [continuing]. Procurement, I think my 
procurement officer would get really upset with me if I were to 
say very much more.
    Ms. Clarke. Very well, Dr. Gowadia.
    To radiation portal monitors--and this is for both Dr. 
Gowadia and Mr. Trimble. Like many on this committee, we cannot 
and should not forget some of the wasteful acquisitions and 
deployments of complex security hardware that did not meet the 
needs of the threat or meet requirements of the program it was 
intended for. The ASP program is one of those.
    Would you give us an overview today of the status of the 
ASP program and later give us written details as to the cost 
and the planning documents that will describe the details of 
the current posture of the ASP within your planning strategies?
    Ms. Gowadia. As you are aware, Ms. Clarke, the program was 
started in 2004 and cancelled in 2011.
    To make the best use of the technologies that we had 
procured, the low-rate initial production units, 36 of those 
systems are--we gave them to universities and National 
laboratories to continue with the science, and some fraction of 
those were also shared with the Department of Energy's Second 
Line of Defense Program. They continue to be operated in the 
field for overseas scanning operations.
    Five of those portal monitors were given to our States--
Georgia, Tennessee, Mississippi, Missouri, and New Mexico. Two 
more are on their way to California.
    For the mobile detectors, the ones that were built onto 
trucks, essentially SUVs, we have some in New York, some in 
Virginia, and some in Alabama and Florida. So seven of nine 
mobile detection systems are also in use today.
    These systems have served as a means for us to gather 
important technical data--operational data and maintenance 
data. They will certainly factor into all our technology 
programs moving forward, our acquisition programs moving 
forward. In fact, they will inform our analysis of alternatives 
for whatever we will do next with our radiation portal 
monitors.
    But, most importantly, we have learned our lessons well on 
the cancellation, the acquisition process. We have turned up 
the discipline at DNDO so that we have a very rigorous solution 
development process, which is aligned very nicely with the 
Department's Acquisition 102-01. We are beginning to share our 
integrated governance and program management approach across 
the Department, in concert with the Secretary's unity-of-effort 
priority, as well as the establishment of the Joint 
Requirements Council at the Department. So we hope that the 
lessons we have learned will inform not just us, as they have, 
but across the DHS acquisition community.
    Mr. Trimble. I don't have too much to add to that. A lot of 
our work is a couple years old, at this point. I think what I 
would highlight is, just sort of from the lessons learned from 
that experience, the importance of communication between end-
users and the developers of the system, that that is absolutely 
critical at all phases.
    Not particular to DNDO, I would note that we did a wrap-up 
report, I believe in 2013, looking at the lessons learned from 
the ASP program. One of our recommendations from that was to 
DHS to--they have a policy for doing lessons learned, but they 
didn't have a process to make sure their components were 
actually following it. So, as Dr. Gowadia mentions that they 
are trying to implement these lessons, we had a recommendation 
to make sure that that kind of thing was happening across DHS, 
because there was not a real disciplined process to make sure 
that was happening.
    Ms. Clarke. Thank you, Mr. Chairman. Yield back.
    Mr. Meehan. I thank the gentlelady.
    Dr. Gowadia, in the commentary both from my colleague as 
well as some of the opening statements and certainly some of 
the other written testimony, DNDO has been described before as 
``soup-to-nuts,'' in a larger way, maybe, than some other 
agencies. So you start with basic research, all the way through 
to participating in the deployment and even the operations with 
your stakeholder.
    So explain to me your approach to research and development 
and then how that is tied to your critical needs. But just as 
significantly, because I think some of the testimony we had 
before, how about the gaps? How is this focused on filling 
those gaps so that we ultimately have this turning into, you 
know, operational systems and procedures that work and that are 
cost-effective?
    Ms. Gowadia. Yes, certainly, Chairman Meehan.
    In thinking through the soup-to-nuts approach, as a result 
of developing the strategy, the Global Nuclear Detection 
Architecture strategy, and all the work that we have done so 
far over our last 9 years, the authorities you have afforded us 
by way of the SAFE Port Act, I think, are a very effective 
means for us to combat nuclear terrorism. You have given us a 
singular focus, making it so that we stay on target every day 
for a threat that has a very low probability, very high 
consequences.
    The holistic, integrated approach, I think, is valuable 
because we are interested in moving capability to the field. 
Capability is so much more than just technology. It is the 
training. It is the exercises. It is, as you mentioned very 
appropriately, ensuring that we analyze the risk, establish the 
gaps, and allocate our resources in accordance with them. We do 
this through our R&D program, through our test and evaluation 
that supports the R&D, and certainly through our operations 
support program.
    So I want to dispel the notion that we are an operational 
office. We are not. But we are very keenly supportive of our 
operational partners. To Ms. Clarke's point, we bring in our 
operational partners very early. We are an interagency office. 
We were established that way for a purpose. We do not just have 
scientists and engineers; we have intelligence officers, we 
have retired intelligence officers, retired law enforcement 
officers, policy analysts, acquisition professionals----
    Mr. Meehan. But where do you draw the distinction between 
your group and the operational entities? Who are some of those? 
Are those the port entities themselves, among others?
    Ms. Gowadia. Yes. Yes, sir. So we do the risk analysis and, 
with them, develop the right technologies, with them, test the 
right technologies.
    Mr. Meehan. Which is the improvement you are looking on 
incorporating----
    Ms. Gowadia. Exactly.
    Mr. Meehan [continuing]. In, so we avoid the mistakes that 
led to the first overruns that the Ranking Member has 
discussed.
    Ms. Gowadia. Exactly, Mr. Meehan. In doing so, we are able 
to develop and buy the right systems for them that are suited 
to their CONOPS. Now, who are they? Customs and Border 
Protection, Coast Guard, TSA, our State and local law 
enforcement operators, our international partners. We do the 
R&D for across the enterprise even though we don't buy for 
across the enterprise.
    Mr. Meehan. Right.
    Broadening on the enterprise, we have discussed the concept 
of nuclear, and that is a large part of the focus, but you work 
in combination on which we are dealing with a number of weapons 
of mass destruction that we are concerned about, not just 
analysis but preparedness, response, again, the soup-to-nuts to 
these kinds of major challenges. The Integrated Terrorism Risk 
Assessment looks at things like chemical, biological, 
radiological, as well as nuclear threats.
    So what are your contributions to the risk assessment 
piece, in the first part? How is your collaboration working, 
particularly with the areas of chem and bio that are part of, 
you know, what is going on with the Department of Homeland 
Security?
    Ms. Gowadia. Our contributions to the Presidentially-
mandated Integrated Terrorism Risk Assessment is the rad/nuke 
piece. We collaborate with our partners at S&T, S&T 
Directorate, who do the chem and bio pieces. These come 
together to form that integration.
    Chairman Meehan, I would posit that this is an excellent 
example of how we can bring unity of effort to bear within the 
Department--again, something the Secretary has stressed upon--
S&T and DNDO's analytical capabilities brought to bear to 
inform and influence and assist our operational partners as 
they allocate their resources, not just at DHS but also in the 
interagency.
    Mr. Meehan. Well, how have you been able to see that mature 
and grow?
    So often, what we see has been competition or, you know, 
misdirection even from groups within agencies that sit side-by-
side that see themselves having a little bit of a different 
mission or a simultaneous mission, in essence, but a different 
subset of it, and, you know, sometimes we break into rivalries.
    How has it been that it has been able to work effectively 
in this fashion, where you have been able to create a common 
objective?
    Ms. Gowadia. I think it has been mostly because we have 
very clear lanes. We are responsible for the rad/nuke piece. We 
have developed a construct that you have seen--and, Ms. Clarke, 
I would love for you to see at your convenience--a construct 
that looks at the risk by virtue of a layered transportation 
model.
    We have figured out how to work with our National 
laboratories to get the right weapons information, the right 
radiological threat information. We couple that with an 
adversary model that uses game theory as well as probabilistic 
risk assessments. Using that, we are able to lay down 394 nodes 
in the architecture and score each one, allowing us to have a 
framework for gaps.
    Now, that construct works for the rad/nuke effort. For the 
chem effort and the bio effort, you need different constructs.
    At the working level, repeat constantly to make sure that 
our inputs can then be coordinated. Different constructs can 
still render results in a similar way to be integrated moving 
forward.
    Mr. Meehan. Well, you identified how you addressed the gaps 
just in the nuclear side alone----
    Ms. Gowadia. Yes, sir.
    Mr. Meehan [continuing]. But the same concept, then, is 
worked to assure that we are doing the same thing with the 
other kinds of WMD?
    Ms. Gowadia. Yes. So for the chemical piece--and I don't 
want to speak too far out of my lane here--for the chem piece, 
they look at things differently because they have a different 
set of challenges by way of their toxins. In the biological 
realm, their risks are driven differently.
    So we each arrive at common factors that can be rolled up 
into the integrated risk assessment, mostly based on frequency 
of probable attack, dollar values of consequences, et cetera. 
These things are integrated to allow, for instance, HHS to plan 
countermeasures, medical countermeasures.
    Mr. Meehan. Right. Right. Well, I thank you.
    My time has expired for this particular round, so I am 
going to turn it back to my colleague.
    Ms. Clarke. Thank you, Mr. Chairman.
    I want to pick up on one of the themes you raised about 
duplicating efforts. The National Nuclear Security Agency, 
NNSA, has a nuclear forensic mission to collect detailed 
information on nuclear material from across the world. DNDO 
also has a nuclear forensics mission.
    What is DNDO's forensics mission, and how is it different 
from NNSA's? In what areas within the forensic mission does 
DNDO take a leadership role, and what areas does NNSA take a 
leadership role? Are there areas where the missions of NNSA and 
DNDO overlap?
    I want to hear from both you, Dr. Gowadia and Mr. Trimble.
    Mr. Trimble. So, in the area of forensics, this is not an 
issue, especially in regards to, sort-of, roles and 
responsibilities across the agencies, that we have looked at. 
We have had internal discussions that this might be an area for 
us to discuss with potential Hill clients; it is worthy of an 
inquiry.
    But we have done, and I have in my portfolio, NNSA, and we 
have done some Classified work regarding, sort-of, 
accountability of some of the nuclear materials overseas as 
well as some of the forensics. But we haven't done, sort-of, a 
cross-agency.
    The agency you didn't mention was also DOD plays in this 
sandbox, as well.
    Ms. Clarke. Uh-huh.
    Ms. Gowadia. Well, for us, in the nuclear forensics realm, 
we have much the same coordination responsibilities as we have 
discussed on the detection side.
    The forensics mission can be divided up into pre-detonation 
or post-detonation forensics. In the pre-detonation world, we 
could either capture material or a full device. DNDO is 
uniquely responsible for the pre-detonation materials element, 
so the technical capabilities we need to attribute the 
materials to their source. DOE is responsible for the pre-
detonation weapon itself. The FBI and DOD, depending on whether 
it is CONUS or OCONUS, are responsible for the post-det side. 
So that is how we have nicely broken up the space, so to speak.
    We could not, again, do this without our intelligence 
community underpinning and the strong support of our National 
laboratories system. So we work together to make sure that we 
have a common strategic plan. We do. We have just set up a 
requirements center, which we co-chair with the FBI, to make 
sure that we have our strategic priorities lined up right.
    The thing that you have given us uniquely, by virtue of 
law, is to establish a nuclear forensics expertise development 
pipeline program. Many years ago, this was, as I mentioned in 
my opening statement, an in extremis capability. We did not 
have enough graduate students in our universities across the 
country studying the appropriate sciences--radiochemistry, for 
example.
    We have turned that around. We have established a really 
good pipeline. Nineteen of these students that have come all 
the way through are now already in the laboratories, and we 
will have 35 by 2018. So we have gone from 4 in radiochemistry 
a few years ago to suddenly looking at 35 down the line.
    Ms. Clarke. Well, that is very impressive, Dr. Gowadia.
    Let me just close with this question, and it is about red-
teaming covert rad/nuke testing. DNDO has a red-teaming 
directorate that independently assesses the performance of 
planned and deployed capabilities, including technologies and 
procedures.
    A recent GAO report on CBP covert testing of its rad/nuke 
detection capabilities found that DNDO only works one to three 
times a year with CBP on conducting these types of tests.
    Why isn't the DNDO red-teaming directorate more involved 
with the CBP covert testing program? Is this a risk-based 
decision? Is it because of resource constraints?
    Ms. Gowadia. Ma'am, when it comes to our red-teaming 
efforts, we support much more than our Customs and Border 
Protection partners. We certainly value their partnership, but 
we also have to extend that capability to our State and local 
partners, our interagency partners--DOD, FBI, et cetera, DOE. 
We also work with Coast Guard and TSA in some of those efforts.
    So, yes, actually, it just comes down to these things take 
a very long time to develop and build and execute. That is not 
where it ends. We have to come back, learn our lessons, turn it 
around into documented steps for improvement. So that entire 
process takes a good bit of time. We are able to sustain about, 
I want to say around 20 operations a year, overt and covert.
    Ms. Clarke. Did you want to add anything to that?
    Mr. Trimble. I am a little limited in what I can say about 
that recent report. It was issued Friday, but it is restricted. 
So I would be happy to answer questions on it, but it was 
largely focused on CBP, and there were issues about 
prioritization raised in that. But I would be happy to, in 
another forum, discuss that in more detail.
    Ms. Clarke. Very well.
    Thank you, Mr. Chairman. I yield back.
    Mr. Meehan. I thank the gentlelady.
    Mr. Trimble, you just talked about CBP, which brings to 
mind a report the GAO had done in 2012 looking at 
opportunities, you know, across the board to reduce 
duplication, achieve savings, and enhance revenue. But it also 
identified that there was no single recognized agency 
responsible for leading and directing Federal efforts to combat 
nuclear smuggling.
    Do you feel that there is any kind of fragmentation in 
these efforts to combat those nuclear threats? If so, are there 
possible solutions or better consolidation, or are the 
responsibilities, do you think, better articulated now since 
the report in 2012?
    Mr. Trimble. Yeah, what I would--and I would have to take 
that for a more full answer for the record. I would have to 
look at the specifics on the 2012 report you are referring to.
    The broader issue of overlapping duplication I know was 
raised in a recent report. We looked at DHS for their R&D 
program in science and technology, where we raised concerns 
about DHS not having a common definition of what research and 
development meant and then having a common reporting guidance 
so that research and development across DHS could be managed to 
avert potential duplication across all the R&D activities 
within DHS.
    Because within DHS you have several components that have 
statutory authority to do R&D. It sort-of has the 
deconfliction/coordination role, and it was having challenges 
doing that because there wasn't a common shared understanding 
of it and there wasn't common procedures on how the reporting 
could go.
    Mr. Meehan. Well, in such a narrowly-focused--and I don't 
mean the importance of this is narrowly-focused, but the issue 
itself is somewhat focused, narrowly-focused--how do you assure 
that we are prioritizing R&D and making sure that there is 
collaboration so that there isn't duplication or something 
being done over here that is of no benefit to what you consider 
to be a priority?
    Mr. Trimble. Yeah, well, that is a great question, and that 
ties very closely to the observations from our current work.
    As my statement said, what we are finding is that DNDO has 
mechanisms to help coordinate and manage their R&D. Where we 
are--you know, again, preliminary observations, but where we 
are seeing a potential for improvement is tracking the specific 
projects back to the gaps. So you have gaps, you create 
research priorities, then you create--they have grand 
challenges, and then you create portfolios of research, and 
then you actually have the project.
    So they are very good at managing through that to the 
projects and then assessing how you did at the projects at the 
end of the year. But there is the risk--and I don't want to 
make it oversimplified, but it is the forest-for-the-trees 
risk, right? You get to this point, but are you forgetting 
where you started?
    It is just making that--so what our initial observations 
are, making that linkage back from the specific project you 
funded to your big need could be better documented. We think, 
overall, there needs to be a process for the whole portfolio to 
evaluate how your R&D effort is going.
    That is sort-of where we are going with our on-going work. 
Again, it is preliminary, but the folks are coordinating, there 
is documentation, they say they understand the linkages, they 
say it is in the contract documentation and the project 
documentation. But unless you are a scientist, it is really 
difficult to come in and say, yeah, we are doing great or we 
are off-track.
    Mr. Meehan. But that is something you are, more or less, 
currently looking at?
    Mr. Trimble. That reflects our, sort-of, current thinking 
on the job today.
    Mr. Meehan. Well, we look forward to your thinking as you 
draw some of your conclusions.
    Let me ask you another question, too, about the reality 
that--well, we talk about nation-states and the concern that 
there could be materials that would find their way, you know, 
old Russian weapons or other things that get into the hand of 
terrorist organizations like Hamas or otherwise. But there are 
a lot of other high-risk industrial sources of radiological 
materials, including mobile and stationary sources. We have an 
inside threat because of their presence here.
    So how does DNDO work with the other groups in charge of 
this, you know, the Nuclear Regulatory Commission, the NNSA, 
and others, to secure these materials and prevent theft? Do you 
think that is being adequately done?
    Mr. Trimble. Yeah, well, interestingly, Dr. Gowadia and I 
testified about a month ago on this very subject, on securing 
industrial sources in the United States. GAO has done a couple 
of reports. Previously, we did a report looking at securing 
medical sources of radiological materials.
    I will let Dr. Gowadia talk to you on her role in that 
process, but what I would highlight from our recent work on 
this is that it is really an NRC licensing issue, because NRC 
is setting the rules by which users of the radiological 
materials in the United States must secure these materials. 
What our report had found was that the NRC guidance and 
requirements could be improved with more specificity.
    So, for example, the regs in the NRC vein would say, you 
must use a lock to secure this radiological material in your 
truck. Well, a lock can be like a simple high school gym locker 
lock or it can be a secure, nice security lock. When we went 
out in the field, as you might expect, everyone is doing 
something different.
    Mr. Meehan. Uh-huh.
    Mr. Trimble. Similarly, they had regulations concerning co-
location, like, what would trigger--say you have sources of 
material. If you put them in individual cubbies, locks, you 
didn't hit the regulatory threshold to have security measures. 
So, for well logging companies, they could have a very large 
amount of radiological material but not have to implement 
security measures. So we had very pointed recommendations 
regarding that.
    The other area, on insider threat, very notable in that 
report. It was that we found an instance where someone with two 
convictions for making terroristic threats had been given 
unescorted access to radiological materials. The NRC--to 
acknowledge that that was okay by their regulations.
    Mr. Meehan. Well, I mean, for materials like this, no 
matter where they are, if they are in an industrial setting 
like a hospital or in, you know, a Government facility, isn't 
there some level of requirement before you have access to those 
kinds of things, that you pass some sort of background----
    Mr. Trimble. Well, that--right. That is the NRC--NRC sets 
those requirements, and NRC licenses the material. But the 
licensing requirements are very general. Then the background 
check provisions are essentially to say fingerprint, do a 
background check, but there are no ``thou shall nots'' in the 
requirements. So even if you do a background check and you find 
someone has an extensive criminal record, it is still okay, it 
is still the company's decision whether to grant that person 
access.
    The connection I would make--I mean, it is a little--the 
connection I would--and I made it at the last hearing--is the 
importance of that is, as Dr. Gowadia tightens the noose and 
makes it more difficult to come into this country with these 
materials, it makes it much even more appealing to go domestic, 
shop local for your dirty-bomb material, than try to bring it 
in from overseas.
    So it is the other side of the equation, right? Your 
instinct is right on this, is, as you make it harder to make 
this stuff come in for the United States, you can't neglect how 
easy it is to get it domestically.
    Mr. Meehan. Dr. Gowadia, what do you think about that and 
the concept--I mean, I get it, I don't want to micromanage to 
that level. But, you know, we prevent people who have spent 
their whole college career and they can't get a teaching degree 
because they had a marijuana thing in their background. Other 
policy, other place, some other time. But that is prevention. 
It seems to me that if you have a criminal record and the 
record relates to some kind of, you know, threats or otherwise, 
to be able to have any access to materials is mind-boggling to 
me.
    But you can react to other points of Mr. Trimble's 
commentary, as well as that particular issue, if you would.
    Ms. Gowadia. Certainly, Chairman Meehan, the more secure 
these materials are, the easier it becomes on us. That layered, 
multifaceted architecture that begins with the material 
security is reinforced. So anything any of us can do to 
continue to, as Mr. Trimble mentioned, to tighten that noose, 
no matter where you are in the chain, would certainly have 
beneficial cascading effects to prevent a successful nuclear or 
radiological attack.
    Securing the materials themselves is not within DNDO's 
purview. We are recipients of the information once it has left 
regulatory control, and so we have a very close ties with our 
partners at NRC. In fact, NRC sends us a detailee, and DOE, on 
occasion, has sent us detailees, so that we can maintain some 
of that on-going dialogue and awareness of an on-going event.
    It is my understanding that both the NRC and DOE have 
accepted Mr. Trimble's recommendations.
    Mr. Trimble. I would say a qualified accept.
    Ms. Gowadia. Qualified.
    But we will certainly partner with them and watch the 
implementation and encourage best practices to be shared. It 
can only improve the security.
    Mr. Meehan. Right. I thank you.
    Well, let me turn to the gentlelady for a final question.
    Ms. Clarke. Very well, Mr. Chairman.
    Just an ask of you, Dr. Gowadia, if you have a list of 
authorities or program changes that you think are needed that 
the subcommittee can be of assistance with, we would ask that 
you submit that to us in writing, especially considering the 
likelihood that in the upcoming years we will be seeing some 
declining budgets. We want to make sure that, to the extent 
that we can make the case for maintenance of effort, at least, 
that we have all of the information that helps us to make the 
case.
    Ms. Gowadia. Certainly. Certainly, Ms. Clarke. We 
definitely will do that. We will send you our request in 
writing.
    We have reviewed our authorities. We don't see the need to 
expand them. We do feel that the set, as they are, are 
extremely valuable. They are manifest in every day that we do 
our work.
    The only request we really have is to change one of our 
reporting requests from an annual to a biennial status. It 
would allows us to save just at DNDO $800,000 every 2 years if 
we were to go into that cadence. It would actually be more 
meaningful, because the progress--it is hard to see it year on 
year, but giving us a longer integration time, I think, would 
be more valuable to you, as well. So that one our one request.
    There are other things on the margins which we will 
certainly share with all of you and your staff. Again, thank 
you very much for affording us the opportunity to have this 
reauthorization, and we look forward to working with you to 
move forward on it.
    Ms. Clarke. Very well.
    I yield back, Mr. Chairman.
    Mr. Meehan. I thank the gentlelady.
    Let me just ask one, sort-of, closing question or comment, 
Dr. Gowadia, because you have been at this for a short period 
of time, but you project, as well.
    I think if we look at this, just in the 4 years that I have 
been here, we have seen a change in the global environment. We 
have seen more concern about terrorist organizations and others 
who seem to be getting more active and potentially have access 
to things. We have seen Iran in a state in which not only are 
we worried about the proliferation of their capacity, and there 
are political questions about how well-contained that will be, 
but it is--I hope it is not predictable, but it is foreseeable 
that if there is any on-going Iranian capacity to continue to 
expand, that you might begin to see proliferation of other 
countries looking, either because they want to participate or 
they want to protect themselves by at least having an equal 
status. We could see, down the road, not just a few but numbers 
of countries, in fact even potentially scores of countries, 
with access to nuclear capacity, maybe even nuclear weapons.
    So, anticipating the combination of the threat of terrorism 
and the loose--the struggle we have to prevent things being 
controlled, I should say, not loose, but be in control of that 
which exists, and the concern about proliferation and new 
states, where do you see your mission evolving in, you know, 5 
and 10 years compared to where you began with some of this? 
What other kinds of challenges do you think you might face in 
the future?
    Ms. Gowadia. Chairman Meehan, our vision will remain the 
same: A Nation secure from the threat of nuclear terrorism. But 
we will continue with our interagency partners, our State and 
local partners, our international partners to continue to build 
this multilayered, multifaceted architecture, again, to make it 
so that the undertaking of such an act would just be 
prohibitively difficult.
    Now, it goes all the way back to the security of materials, 
the spreading of best practices. We will continue to work with 
our international partners at the IAEA, the National Law 
Enforcement Agency, even partner nations, so that they begin to 
develop, based on our best practices and guidelines, what we 
have learnt, readily to share their other own architectures. So 
as you have National architectures built up--and by that, I 
don't just mean detection systems, I mean regulatory 
infrastructure, just as we have with the NRC--good practices 
for securing and maintaining their materials, accountability, 
et cetera, developing interior law enforcement capabilities 
within the nations, not just border capabilities, this begins 
to set up a harder and harder challenge, so even if we do see 
the proliferation, we continue on the blue side to improve 
capabilities.
    Now, speaking of proliferation, you know that President 
Obama has laid strong priority in reducing the amount of 
special nuclear material that is available in the world today. 
We have made tremendous progress based on the security summits 
that he started. I don't have all the facts with me just yet 
off the top of my head, but I do believe the nation-states that 
had special nuclear materials significantly reduced in the last 
6 years. I hope that trend continues. Best practices that DOE 
shares and DOD shares with their partner nations, again, for 
the security of the military programs, is so important.
    Again, multiple layers, multi-faceted layers. If you choose 
to do this, we can look at the money transfers, we can look at 
the SIGINT, et cetera, et cetera. Anything that would give us 
an advantage and an edge and make it so they have to be right 
every time, giving us better opportunity, is exactly where we 
are headed.
    Can't do this without our partners. Our greatest focus will 
be our partners. We have found a way to include them in all our 
activities, all our planning from Day 1, whether it is the risk 
assessment, the capabilities-based assessments. They write the 
mission needs statements with us. That is a significant lesson 
learned from our past missteps.
    So those partnerships--law enforcement, operational 
community, intelligence community, technical community--we will 
base our efforts moving forward, particularly in light of the 
diminishing budget. We don't have the luxury of having any 
overlap. We will have to strategically partner to advance the 
cause, even partnering with our international partners. We have 
the British collaborating with us in R&D with S&T. So anywhere 
where we can find a way to leverage, we must and will do so.
    Mr. Meehan. Well, I applaud you for that leveraging with 
the friendly partners in the international community. It seems 
to make sense for all of us to be doing so in that capacity.
    So I want to thank you again for your leadership.
    I want to thank you, Mr. Trimble, for your oversight.
    Collectively, these are continuing explorations of very, 
very vitally important issues to not only our homeland security 
but actually global security. So I thank you for your work and 
your valuable testimony.
    It is possible that some of our Members who will read this 
transcript will be interested in having additional questions. 
So if they do, you know, we ask that you respond in writing.
    But I thank you again for your testimony.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 3:15 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

        Questions From Chairman Patrick Meehan For Huban Gowadia
    Question 1. What is DNDO's relationship with the DOE labs, and how 
is DNDO leveraging their capabilities and expertise? Are there lessons 
learned in contracting with the labs that would be beneficial to other 
DHS organizations?
    Answer. The Domestic Nuclear Detection Office (DNDO) has a good 
working relationship with the Department of Energy (DOE) National 
Laboratories and they have made significant contributions to all 
aspects of the DNDO mission. According to the Homeland Security Act, 
DNDO (as part of DHS) has access to the laboratories equal to that of 
DOE; DHS-funded activity is not considered to be ``work for others'' 
that the labs can refuse if they don't think it to be within their 
mission. In fiscal year 2013, DNDO obligated over $72 million at the 
DOE National Laboratories and will likely obligate over $82 million in 
fiscal year 2014.
    National Laboratory subject-matter experts' knowledge of nuclear 
weapons and associated capabilities has been a great asset to DNDO. 
Their staff provides key data and analysis into system threat reviews, 
including on-going analyses that are being used to determine the 
feasibility of reconfiguring radiation portal monitor settings to 
reduce the number of nuisance alarms while maintaining threat detection 
sensitivity. We also rely on their unique knowledge and expertise to 
design, manufacture, store, and transport the special nuclear materials 
and weapon mock-ups (test sources) that we use in our test campaigns 
and red teaming.
    In fact, testing and evaluation of nuclear detection systems is a 
key area where DNDO leverages DOE National Laboratory facilities and 
expertise. Scientists from the National Laboratories help us to design 
tests that are rigorous but efficient, with many of these test 
campaigns conducted at DOE facilities. For example, our Radiological 
and Nuclear Countermeasures Test and Evaluation Complex is located at 
the Nevada National Security Site, a DOE facility. Its location, 
adjacent to DOE's Device Assembly Facility, allows us to utilize the 
unique sources stored at this facility. Nevada National Security Site 
personnel maintain and secure our test facility, and also provide staff 
to execute our tests.
    Many of the National Laboratories support cutting-edge research to 
develop new capabilities for nuclear threat detection. This research 
spans such broad areas as advanced materials for gamma-radiation 
detection, new approaches to neutron detection and other novel 
techniques for radiation detection, gamma-ray imaging, advanced 
techniques for the active detection of shielded nuclear materials, and 
improved capabilities for modeling and simulation to understand 
detector performance.
    To fulfill its technical nuclear forensics mission, DNDO also 
relies on the National Laboratories. Nearly all research and 
development to improve technical nuclear forensics is conducted at DOE 
National Laboratories, and we work with them on our National Technical 
Nuclear Forensics Expertise Development Program to increase the number 
of scientists capable of conducting the National technical nuclear 
forensics.
    Finally, DNDO was established in the Department of Homeland 
Security as an interagency organization that may receive detailed 
personnel from the Secretary of Defense, the Secretary of Energy, the 
Secretary of State, the Attorney General, the Nuclear Regulatory 
Commission, and the directors of other Federal agencies, including 
elements of the intelligence community. Traditionally DNDO has also 
benefited from the inclusion of National Laboratory employees through 
Intergovernmental Personnel Agreements (IPAs). This year, DNDO has had 
three IPAs working as a part of our staff--one from Oak Ridge National 
Laboratory, one from Lawrence Livermore National Laboratory, and one 
from Los Alamos National Laboratory.
    When contracting with the DOE labs, DNDO has found it beneficial to 
provide the DOE site office with advanced notification of pending 
interagency agreements. This allows us to identify and make any 
necessary changes to the Statement of Work prior to approval by a DHS 
contracting officer and submission to DOE. Advanced notification jump-
starts the DHS and DOE review and approval processes and shortens the 
time to codify the interagency agreement.
    Question 2a. Research projects are inherently risky--with great 
uncertainty about the end results of the research. Because of this 
risk, sometimes research projects fail to produce intended results. In 
some respects, this is part of the cost of doing research.
    Does DNDO have any kind of a benchmark for what percentage of 
research projects should end in positive results--meaning that the 
research leads to the development of a new or improved capability?
    Question 2b. How does the Congress know if it is getting an 
appropriate yield for its investment in DNDO R&D activities?
    Answer. In order to tackle our technical grand challenges while 
providing near-term results, DNDO takes a balanced approach to 
technical risk. To that end, DNDO's R&D budget supports approximately 
20% basic research, 40% applied research, and 40% technology 
development. This approach also supports the establishment of a healthy 
technology development pipeline. On a regular basis, all projects 
report out their R&D results, either positive or negative, so that the 
body of knowledge is continuously increasing.
    In addition, annually DNDO reports two DHS management performance 
measures that demonstrate a robust technology pipeline and a robust 
human capital, or workforce, pipeline.
  <bullet> For the technology pipeline, in 2013 DNDO obtained 42 
        comprehensive evaluations or demonstrations of new and improved 
        technologies to protect against nuclear terrorism, surpassing 
        its goal of 23.
  <bullet> For the human capital pipeline, in 2013 DNDO granted 71 
        student fellowships and faculty awards in nuclear forensics and 
        radiation detection-related specialties, surpassing its goal of 
        63.
    DNDO works closely with DHS Program Analysis and Evaluation and the 
Office of Management and Budget to develop performance measures and set 
targets. The targets reflect projected outcomes based on Department 
priorities and budgetary considerations.
    Over the period of multiple years, the success of an R&D program 
can be demonstrated by technology that transitioned from an idea, to a 
laboratory prototype, to a new operational capability. DNDO has 
implemented rigorous processes to track the progress of individual 
research efforts by using technology readiness levels, feasibility 
evaluations, proof-of concept demonstrations, and technology 
demonstration and characterizations. DNDO also employs a phase-based 
approach to research management, where progress is assessed for a given 
project after every phase in the project's life cycle to determine 
whether the research should be carried forward or discontinued, and all 
portfolios are periodically reviewed by the DNDO leadership team. These 
processes allow for economy and efficiency in research execution, 
mitigate technical risk, and permit focusing research to productive 
end-states. We are presently working to comprehensively summarize the 
transition success of our portfolio, and early indications are that it 
is on par or above the success of other Federally-sponsored research 
programs.
    DNDO is beginning to see the results of technology transfers 
resulting in the fielding of detection capabilities. As a result of 
DNDO's efforts, there are new gamma-ray detection materials, new 
neutron detectors that are not dependent on Helium-3 (a rare material 
in very short supply that is being reserved for applications in which 
it cannot be replaced), improved algorithms, and modeling tools that 
are now either commercial products or are broadly available to support 
the research and development community as a whole. Technologies 
supporting long-range radiation detection and wide-area search 
operations have also been matured to the point where programs of record 
and commercial spin-offs are feasible.
    Finally, new technologies for the detection of shielded special 
nuclear material in cargo continue to mature, and several have or are 
achieving significant maturity to support operational demonstrations. 
Together, these successes contribute to improved capabilities, and 
create core technologies that will support a range of future 
capabilities.
    Question 3. The National Technical Nuclear Forensics Center was 
established within DNDO in October 2006. As you know, the mission is to 
serve as program integrator and steward for the U.S. Government to 
ensure a ready, robust, and enduring nuclear forensics capability. Can 
you update us on this program and has it been successful? How do you 
measure that success?
    Answer. DNDO has had considerable success with our nuclear 
forensics mission. Since 2006, when DNDO was given this mission, the 
U.S. Government has made substantial progress in developing 
requirements, addressing technology gaps, improving the rigor of 
exercises, and increasing the expertise pipeline from academia to the 
National Laboratories. DNDO has worked to coordinate the efforts of the 
U.S. Government for planning, operations, and technology development in 
nuclear forensics and attribution.
    Today the interagency constantly plans together, through Executive 
Council and Steering Committee meetings at DNDO and many other planning 
venues. We develop joint plans, such as the 2010 National Strategic 
Five-Year Plan for Improving the Nuclear Forensics and Attribution 
Capabilities of the United States.
    We established a Nuclear Forensics Requirements Center, which DNDO 
co-chairs with the Federal Bureau of Investigation Laboratory. For the 
first time, we've identified, developed, and documented technical and 
operational requirements across the nuclear forensics spectrum.
    Technical capabilities are steadily advancing. For example, DNDO 
has developed the first-ever lab-scale uranium processing capability to 
determine nuclear material characteristics that are uniquely associated 
with specific variations of uranium manufacturing processes. This 
capability allows us to better link the material to its origin and 
possible pathways.
    Forensics exercises have become remarkably realistic and rigorous, 
with intensive multi-agency planning among the Federal Bureau of 
Investigation, the Department of Energy, the Department of Defense, and 
DNDO. Many of the exercises now include State and local law 
enforcement. State and local law enforcement have provided facilities 
for exercises, as well as air transport and safety escorts for the 
nuclear forensics teams to collect simulated debris samples for nuclear 
forensic analysis.
    Another notable success is our Expertise Development program, which 
was launched in 2008. To date, we have provided support to over 300 
undergraduate and graduate students, as well as faculty members at 23 
universities. Nineteen new nuclear forensics Ph.D. scientists have come 
through our ``pipeline program'' and been hired, primarily by the DOE 
National Laboratories, since the program's inception. This brings us 
more than halfway to our goal of adding 35 new Ph.D. scientists into 
the nuclear forensics field by 2018.
    We have a variety of methods for measuring our progress in 
executing the technical nuclear forensics mission.
    First, we assess our progress in an Annual Report to Congress 
against the objectives laid out in the National Strategic Five-Year 
Plan. Further, the annual National Technical Nuclear Forensics 
Implementation Plan describes how the community will accomplish the 
objectives outlined in the Strategic Plan.
    Second, with respect to technical capability development, DNDO 
focuses on providing our operational partners with the ability to 
accurately and precisely measure and characterize nuclear and other 
radioactive materials in a defensible manner that will stand up to 
outside and legal scrutiny. Guiding this effort is a set of measurement 
requirements authored by the interagency Bulk Special Nuclear Material 
Analysis Program. DNDO develops analytical methods to meet these 
requirements, and measures success in the transition of approved 
methods to the DOE's operational nuclear forensics laboratories.
    Third, in the exercise arena, we have a formal process for 
evaluating technical competencies and areas for improvement during 
exercises. These areas for improvement are discussed among the partner 
agencies and documented in Corrective Action Plans, which are 
implemented, tracked, and verified in subsequent exercises.
    Fourth, for expertise development, we closely track the numbers of 
students, colleges, and junior faculty members receiving awards, and we 
monitor their progress through our pipeline in conjunction with the 
quality of their research, as determined by our interagency partners, 
DOE National Laboratory scientists, and our Nuclear Forensics Science 
Panel. We also perform annual assessments to monitor how well the 
National Nuclear Forensics Expertise Development Program is meeting the 
demands of the nuclear forensics workforce.
    Question 4. What is DNDO doing to partner with foreign ports to 
reach the goal of 100% scanning of in-bound cargo? How does DNDO 
coordinate their efforts with DOE and DOS?
    Answer. DNDO's role in the matter of 100% scanning of in-bound 
cargo is predominantly focused on supporting the technology used in 
detection and in mission analysis. We develop, acquire, and support the 
detection systems that could be used by our operational partners for 
this mandate and we assess risk reduction across the global nuclear 
detection architecture.
    We first conduct research and development on technologies that may 
be applied to meet the 100% scanning mandate. We are in the process of 
characterizing the effectiveness and maturity of three different 
systems that have some ability to detect shielded and unshielded 
nuclear and other radioactive materials in containerized cargo.
    In addition, DNDO collaborates with DOE's Second Line of Defense 
Program on requirements development, acquisition strategies, 
technological advancements, capability improvement, and post-deployment 
lessons learned and data analysis. DNDO has also transferred radiation 
detectors to DOE for use at foreign ports.
    Recently, DHS DNDO teamed with DHS Science and Technology 
Directorate, Borders and Maritime Security Division to develop a 
revolutionary high-energy, non-intrusive inspection (NII) system. This 
system will not only image and support interdiction of shielded and 
unshielded special nuclear material but will support detection of 
contraband materials such as explosives, drugs, weapons, currency, and 
bootleg alcohol and tobacco. Previously, this has required two 
distinctly different NII systems focused on different threats. This 
integrated NII system will be installed at a Boston area Massachusetts 
Port Authority (MASSPORT) facility where it will be jointly tested by 
DHS, MASSPORT, and the UK Home Office, which is also a partner in this 
project and looking for an integrated solution.
    Question 5. Do you feel that the Memorandum of Understanding 
between DNDO, NNSA, DTRA, and DNI is sufficient for achieving maximum 
efficiency in exchanging information between agencies on radiological 
and nuclear threats?
    Answer. Yes. The MOU between DNDO and the National Nuclear Security 
Administration (NNSA), the Defense Threat Reduction Agency (DTRA), and 
the Office of the Director of National Intelligence (ODNI) is a very 
effective means to coordinate research and development efforts related 
to nuclear detection. The MOU allows full and open access among the 
parties to on-going research and development, facilitates interagency 
representation in program reviews and proposal evaluations, and affords 
easy access to R&D findings, thereby increasing efficiency and reducing 
duplication of effort. The Nuclear Defense Research and Development 
Roadmap, Fiscal Years 2013-2017, developed by the interagency through 
the National Science and Technology Council's Committee on Homeland and 
National Security, enables further coordination and information 
exchange across the interagency.
    DNDO also works closely with DTRA, NNSA, and ODNI to share 
information on radiological and nuclear threats. As part of our risk 
analysis process, interagency experts, including those at DHS/I&A, are 
surveyed on the likelihood of different threat scenarios. DNDO 
collaborates closely with NNSA to estimate the theoretical capabilities 
of different adversaries to develop improvised nuclear devices. This 
information is then used to support, develop, and maintain the global 
nuclear detection architecture and related efforts.
    Question 6. The NSC has established coordination mechanisms, 
including a Countering Nuclear Threats Interagency Policy Committee, 
for international nuclear and radiological border security efforts. Do 
you feel that this has significantly improved interagency cooperation 
for nuclear smuggling? If not, how could the coordination be maximized?
    Answer. Engagement with staff from the National Security Council is 
beneficial and improves coordination efforts by providing a high-level 
venue to gain interagency concurrence and address concerns. Indeed, 
DNDO was created through the interagency process and remains committed 
to working with the National Security Council to continue to strengthen 
interagency coordination. For example, the 2010 and 2014 Global Nuclear 
Detection Architecture Strategic Plans and the 2010 National Strategic 
Five-Year Plan for Improving the Nuclear Forensics and Attribution 
Capabilities of the United States were vetted and approved utilizing 
the same process. Coupled with other, non-White House-led mechanisms, 
such as the Global Nuclear Detection Architecture Interagency Working 
Group, the Nuclear Forensics Executive Council, and the National 
Technical Nuclear Forensics Steering Committee, coordination efforts 
continue to improve to ensure a holistic and efficient interagency 
approach to detecting nuclear and other radioactive materials out of 
regulatory control.
    Question 7a. DNDO is participating in the European Union initiated 
Illicit Trafficking Radiological Assessment Program, or ITRAP+10, so-
called because they are revisiting the original assessment 10 years 
later. This program involved testing of numerous types of radiation 
detection equipment including RPMs.
    Specifically what is DNDO's involvement in that program?
    Question 7b. How is DNDO using the results of this testing in 
making decisions to procure new RPMs or other radiation detection 
equipment?
    Answer. The ITRAP+10 program was a true partnership for us with the 
European Commission's Joint Research Center. Both parties contributed 
funding, facilities, scientists, test personnel, and radiological and 
nuclear sources to execute this program. ITRAP+10 also included sharing 
of scientific subject-matter experts for peer review, joint test and 
analysis plans, and sharing of specialized test equipment to ensure 
consistent results. In all, ITRAP+10 tested 79 commercially-available 
models in nine categories of instruments against standards accepted by 
the American National Standards Institute and the International 
Electrotechnical Commission.
    Specifically, DNDO:
  <bullet> Tested 47 models of instruments to the full complement of 
        consensus standards, which included testing to extreme 
        environmental, mechanical, and electro-magnetic influences,
  <bullet> Developed novel instrumentation and standardized source kits 
        and test phantoms,
  <bullet> Will publish 47 individual vendor reports detailing the 
        performance against standards of each of instrument tested,
  <bullet> Will publish nine comprehensive reports with the JRC which 
        will survey the status of current generation detectors, and
  <bullet> Will archive the complete data set for future use.
    Results from the ITRAP+10 efforts have directly supported two 
acquisition programs for the Department and numerous requests from 
other Federal, State, and local officials. For example, the Small 
Vessel Stand-Off Detection program has used the data from the testing 
to inform performance and operational testing, and the Human Portable 
Tripwire program was able to leverage the ITRAP+10 spectroscopic 
radiation personal detector tests to revise quantitative requirements 
at substantial savings.
    ITRAP+10 results are also being used to inform the Analysis of 
Alternatives for the Radiation Portal Monitor Program.

                                 [all]
</pre></body></html>
